<html>
<title> - WHERE THE JOBS ARE: CAN AMERICAN MANUFACTURING THRIVE AGAIN?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
      WHERE THE JOBS ARE: CAN AMERICAN MANUFACTURING THRIVE AGAIN?

=======================================================================



                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 19, 2012

                               __________

                           Serial No. 112-139



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
81-915                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire       MIKE ROSS, Arkansas
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey            Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                  _____


           Subcommittee on Commerce, Manufacturing, and Trade

                       MARY BONO MACK, California
                                 Chairman
MARSHA BLACKBURN, Tennessee          G.K. BUTTERFIELD, North Carolina
  Vice Chairman                        Ranking Member
CLIFF STEARNS, Florida               CHARLES A. GONZALEZ, Texas
CHARLES F. BASS, New Hampshire       JIM MATHESON, Utah
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan
LEONARD LANCE, New Jersey            EDOLPHUS TOWNS, New York
BILL CASSIDY, Louisiana              BOBBY L. RUSH, Illinois
BRETT GUTHRIE, Kentucky              JANICE D. SCHAKOWSKY, Illinois
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     HENRY A. WAXMAN, California (ex 
MIKE POMPEO, Kansas                      officio)
ADAM KINZINGER, Illinois
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)

                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Mary Bono Mack, a Representative in Congress from the State 
  of California, opening statement...............................     1
    Prepared statement...........................................     4
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, opening statement.....................     8
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     9
Hon. Bill Cassidy, a Representative in Congress from the State of 
  Louisiana, opening statement...................................     9
Hon. Adam Kinzinger, a Representative in Congress from the State 
  of Illinois, opening statement.................................    10
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    91

                               Witnesses

John E. Bryson, Secretary, Department of Commerce................    11
    Prepared statement...........................................    13
    Answers to submitted questions...............................    92
Robert D. Atkinson, President, Information Technology and 
  Innovation Foundation..........................................    41
    Prepared statement...........................................    43
    Answers to submitted questions...............................   108
Al Lubrano, President, Materion Technical Materials, on behalf of 
  the National Association of Manufacturers......................    55
    Prepared statement...........................................    57
    Answers to submitted questions...............................   114
Craig A. Giffi, Vice Chairman and U.S. Consumer and Industrial 
  Products Practice Leader, Deloitte LLP.........................    70
    Prepared statement...........................................    72
    Answers to submitted questions...............................   120
Ken Tindall, Vice President of Science and Business Development, 
  North Carolina Biotechnology Center............................    77
    Prepared statement...........................................    79
    Answers to submitted questions...............................   130

                           Submitted Material

Report, dated January 2011, of the U.S. Manufacturing 
  Competitiveness Initiative, ``Ignite 1.0: Voices of American 
  CEOs on Manufacturing Competitiveness,'' submitted by Mrs. Bono 
  Mack \1\
Report, dated June 2011, of the U.S. Manufacturing 
  Competitiveness Initiative, ``Ignite 2.0: Voices of American 
  University Presidents and National Lab Directors on 
  Manufacturing Competitiveness,'' submitted by Mrs. Bono Mack 
  \1\
Report, dated December 2011, of the U.S. Manufacturing 
  Competitiveness Initiative, ``Ignite 3.0: Voice of American 
  Labor Leaders on Manufacturing Competitiveness,'' submitted by 
  Mrs. Bono Mack \1\
Report, dated 2011, of Deloitte and The Manufacturing Institute, 
  ``Boiling point? The skills gap in U.S. manufacturing,'' 
  submitted by Mrs. Bono Mack \1\

----------
\1\ Internet addresses and links to the reports are available on 
  page 90.


      WHERE THE JOBS ARE: CAN AMERICAN MANUFACTURING THRIVE AGAIN?

                              ----------                              


                        THURSDAY, APRIL 19, 2012

                  House of Representatives,
Subcommittee on Commerce, Manufacturing, and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11:06 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Mary Bono 
Mack (chairman of the subcommittee) presiding.
    Members present: Representatives Bono Mack, Blackburn, 
Stearns, Harper, Lance, Cassidy, Guthrie, McKinley, Pompeo, 
Kinzinger, Upton (ex officio), Butterfield, Dingell, Rush, and 
Sarbanes.
    Staff present: Paige Anderson, Commerce, Manufacturing, and 
Trade Coordinator; Charlotte Baker, Press Secretary; Michael 
Beckerman, Deputy Staff Director; Kirby Howard, Legislative 
Clerk; Brian McCullough, Senior Professional Staff Member, 
Commerce, Manufacturing, and Trade; Gib Mullan, Chief Counsel, 
Commerce, Manufacturing, and Trade; Shannon Weinberg, Counsel, 
Commerce, Manufacturing, and Trade; Tom Wilbur, Staff 
Assistant; Michelle Ash, Democratic Chief Counsel; Felipe 
Mendoza, Democratic Senior Counsel; and Will Wallace, 
Democratic Policy Analyst.
    Mrs. Bono Mack. Please now come to order. Good morning.
    When it comes to the future of manufacturing in the United 
States, let us be a Nation where help-wanted signs hang on 
factory gates over closed-for-business signs. Today, our 
subcommittee will tackle a critically important subject, can 
American manufacturing thrive again? The future of our economy 
could well be at stake. And the Chair now recognizes herself 
for an opening statement.

 OPENING STATEMENT OF HON. MARY BONO MACK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Throughout our Nation's long history, a growing and robust 
manufacturing sector has helped to make America great. It has 
been a driving force in our economy since the Industrial 
Revolution as generations of hard-working Americans, armed with 
machines, tools, and a determined work ethic, cranked out 
everything from airplanes to toasters.
    But as our Nation has moved from the Atomic Age to the 
Space Age to the Information Age, manufacturing has not kept 
up, losing nearly six million American jobs since the beginning 
of the 21st century. Aging, rusting, and abandoned factories 
litter the U.S. landscape.
    Today, we stand at an important crossroads. One direction--
lined by job-killing regulatory hurdles, a punitive tax code, 
and indecisive political leadership--will lead ultimately to a 
further erosion of our manufacturing base and lost prosperity 
for future generations of Americans.
    The other direction--where smart policies and smart minds 
eventually intersect--could lead, instead, to a resurgence in 
U.S. manufacturing, putting millions of Americans back to work 
again and breathing new life into the beleaguered middle class.
    Secretary Bryson, as chairman of this subcommittee, I look 
forward to working closely with you on this very important 
issue. Let us make ``Made in America'' matter again. Let us 
throw the ``start switch'' right now. And let us get the 
widgets moving. Clearly, we don't have any time to waste.
    Statistics show the manufacturing sector was the hardest 
hit in terms of job losses during the Great Recession. While 
manufacturing accounts for just a 10th of our Nation's jobs, 
manufacturing suffered a third of our Nation's job losses.
    What is more, in 2009--for the first time ever--the number 
of unemployed Americans actually exceeded the numbers of 
Americans employed in the manufacturing sector, a fact that 
remains true today, despite a slight uptick in recent hiring. 
So what happened? The U.S. was the undisputed leader in 
manufacturing for decades with the world's largest 
manufacturing economy producing nearly a quarter of all 
globally manufactured products. But that leadership is now in 
serious jeopardy, so it is vitally important to consider what 
is at stake for our Nation.
    According to a report by the National Association of 
Manufacturers, American manufacturing supports nearly one in 
six U.S. jobs, which pay on average over $75,000 with benefits. 
Additionally, manufacturing jobs have the highest multiplier in 
the U.S. economy--every dollar in direct spending produces 
$1.35 in additional indirect output. Conversely, every 
manufacturing job eliminated in America results in the loss of 
two other jobs elsewhere in the economy.
    So as policymakers, we are facing several critically 
important questions. First, what is the true state of the 
manufacturing sector today? Second, what factors are impeding a 
comeback? And finally, and most importantly, what policies 
could aid the manufacturing sector's recovery?
    Here is the good news. Historically, manufacturing is the 
hardest hit during a recession, but the quickest to recover due 
to pent-up demand for goods. Recent numbers from the Bureau of 
Labor Statistics provide a glimmer of hope that the U.S. 
manufacturing sector may indeed be rebounding. Last year, for 
the second consecutive year, American manufacturers actually 
added jobs. Prior to that, the manufacturing sector had 
suffered job losses every year since 1997.
    What is more, according to a recent report by the Boston 
Consulting Group, rising wages in China, the rising cost of 
energy and real estate in China, and the rising cost of 
transporting goods back to America for consumption are 
beginning to make the United States a much more attractive 
option once again for many manufacturers.
    But still other observers see a real cause for concern 
buried within the recovery numbers. Overall, the U.S. lost 5.7 
million manufacturing jobs since 2000, a rate of decline that 
exceeded even the Great Depression, according to a study by the 
Information Technology and Innovation Foundation.
    Compounding this problem is a very sobering fact: the U.S. 
lost a staggering 66,000 manufacturing firms--an average of 17 
per day--over this same period. At the current rate of 
recovery, ITIF estimates the manufacturing sector would not 
return to 2007 job levels until at least 2020.
    There are other factors contributing to this slow rate of 
recovery as well. In its 2009 report, ``Facts About Modern 
Manufacturing,'' the National Association of Manufacturers 
identifies external policy-related costs such as a persistently 
high corporate tax rate, the high cost of healthcare, the 
rising cost of energy, regulatory costs, and tort costs as 
serious barriers to manufacturing. Simply put, there is a 
prevailing sense among many people that the U.S. is falling 
even further behind in fostering an environment conducive to 
job creation.
    So when it comes to U.S. manufacturing, is the glass half 
full, half empty, or will it remain shattered on the kitchen 
floor for millions of out-of-work Americans?
    Mr. Secretary, let us work together to sweep up the glass 
and then set the table for a manufacturing comeback. I continue 
to believe in the greatness of America, and ``Made in America'' 
should continue to be a shared pride for all of us.
    And with that, I now recognize the ranking member of our 
subcommittee and want to in advance wish him a happy 65th 
birthday, which we will be celebrating next week. So Mr. 
Butterfield, you are recognized for 5 minutes for an opening 
statement.
    [The prepared statement of Mrs. Bono Mack follows:]
    [GRAPHIC] [TIFF OMITTED] 81915.001
    
    [GRAPHIC] [TIFF OMITTED] 81915.002
    
    [GRAPHIC] [TIFF OMITTED] 81915.003
    
    [GRAPHIC] [TIFF OMITTED] 81915.004
    
OPENING STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Let me thank you, Chairman Bono Mack. And 
I especially thank you for those kind words in wishing me a 
good birthday next week. I have been looking forward to it for 
a long time, and it has finally come.
    But let me also thank the witnesses for their anticipated 
testimonies today. We know the schedule is kind of disjointed 
this morning, but thank you so much for your patience.
    Madam Chairman, there is no more important issue to working 
Americans than the ability to get and keep a job, provide for 
their families and ensure that when their children grow up, 
they, too, can succeed. The causes of the most recent recession 
are many. They are indeed complex. While the solutions can also 
be complex, one thing is certain: the creation of jobs benefits 
the entire economy, and in recent monthly employment reports, 
we have begun to see the fruits of that labor.
    Over the past 2 years, the manufacturing sector has added 
more than 450,000 jobs. Not since the Clinton administration 
has this sector seen such fast growth. And in a 1-year period 
from January of 2010 to January of 2011, immediately after the 
worst of the recession, the manufacturing sector added 47,000 
machinery manufacturing jobs, 74,000 jobs in fabricated metal 
manufacturing, and 24,000 in computer and electronic 
manufacturing jobs.
    My State of North Carolina is the fifth-largest 
manufacturing State in the country and the largest in the 
Southeast. The manufacturing sector provides about $80 billion 
to our GDP, or roughly 19.5 percent of the total. The nearly 
11,000 manufacturing companies in North Carolina employ almost 
15 percent of the total workforce, equating to well over 
500,000 jobs that pay $65,000 annually on average. Many of 
these jobs are in advanced manufacturing and produce high-tech 
goods used in the defense industry.
    For example, Telephonics is a defense and Homeland Security 
contractor located in Elizabeth City. Telephonics designs and 
manufactures sensors and communications equipment and tests and 
integrates these systems into U.S. military and Department of 
Homeland Security aircraft. DSM, also located in my 
congressional district in Greenville, North Carolina, produces 
all of the revolutionary Dyneema, fiber that is the key 
component in the new enhanced combat helmet, which will better 
protect our service members in the Marine Corps and Army 
without increasing the weight of their helmets. AAR, another 
corporation located in Goldsboro, North Carolina, designs and 
manufactures a wide range of machines and composite structures 
for aerospace and defense applications.
    There is also the North Carolina Biotechnology Center. This 
center was created out of necessity as traditional industries 
like textile and furniture manufacturing began to disappear. 
The Center is the most experienced organization of its kind in 
the world and works to promote the cultivation and development 
of biotechnology applications throughout North Carolina, 
whether they are taking place for medical, agriculture, or 
energy purposes. And they join us today and I am excited to 
hear from them. I hope I can be here when we have the testimony 
of the witness. I am going to have to leave shortly but 
hopefully I can be around for his testimony.
    It is clear that American manufacturing is prime for a 
renaissance, and House Democrats are making an America agenda 
that provides even greater opportunities for success through 
key policy initiatives. Several ``Make it in America'' 
initiatives have already become law, including bills that cut 
taxes and created loans for small businesses, sped up the 
patent process, lowered cost of raw materials, and helped to 
end tax loopholes so that companies are discouraged from 
shipping jobs overseas.
    In the 111th Congress, the House also passed ``Make it in 
America'' legislation to support American clean energy firms, 
invest in job training partnerships, and hold China accountable 
for the unfair currency manipulation that cost American jobs. 
When more products are made in America, more families, too, can 
make it in America.
    And so I look forward to the testimony today and thank each 
of the witnesses for being here and being so gracious with your 
time. I will submit my entire written statement for the record.
    Thank you. I yield back.
    Mrs. Bono Mack. Thank you, Mr. Butterfield.
    And now we have several Members on our side who wish to 
make an opening statement in a total of 5 minutes, so I urge 
them to keep their remarks as brief as possible. And I will 
yield the 5 minutes to Mr. Stearns, who will then yield 
accordingly.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Thank you, Madam Chair.
    This is the third hearing we have had on this subcommittee 
on jobs and it is, of course, a concern for all of us. And what 
we are also concerned about is the high tax rate in America. I 
think just simply lowering the corporate tax code and 
prioritizing the need for a skilled workforce would help. Other 
factors like the high cost of healthcare costs are going to 
impact this country and rising energy prices, so we need to 
have a full energy program.
    And furthermore, we know that legitimate U.S. companies are 
losing jobs as they are forced to compete with offshore 
companies that steal American technologies. Having the FTC, the 
Federal Trade Commission, use its narrow Section 5 authority to 
bring targeted cases against these offshore companies will 
simply demonstrate that access to U.S. markets will not be 
permitted to companies whose business model is based on theft. 
These are things we can all work together on to strengthen our 
economy and I look forward to our hearing.
    With that, I recognize Dr. Cassidy.

  OPENING STATEMENT OF HON. BILL CASSIDY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Cassidy. Thank you.
    Clearly our problem in our economy right now is 
unemployment, and we know that that unemployment is 
disproportionately focused upon blue collar workers. Those 
workers have traditionally been employed in mining, 
manufacturing, and construction. Now, I think we are all 
encouraged that the renaissance in mining in North American 
energy assets--fossil fuel in particular--have led to a 
renaissance in manufacturing, as recently discussed in the New 
York Times, CNN, Money, and elsewhere.
    Now, this is fantastic and if we take it as a moral 
imperative to increase blue collar prosperity, then I almost 
see it as a primary variable we should take it as the moral 
imperative to develop our domestic energy resources. My concern 
is that much of what has happened has happened despite Federal 
efforts, which have been actively inhibitory of bringing those 
domestically or those North American resources to the benefit 
of our blue collar workers.
    So, Mr. Secretary, I thank you for being here. I look 
forward to the discussion and ask you specifically to address 
really what appears to be a hostility towards fossil fuels, 
which inevitably raise input cost, which will inevitably put a 
damper on this renaissance in blue collar employment in 
manufacturing.
    I now yield to Mr. Kinzinger.

 OPENING STATEMENT OF HON. ADAM KINZINGER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Kinzinger. Well, thank you. And thank you for coming in 
and joining us. I want to thank the administration for the 
enactment of the Colombia Free Trade Agreement, which I think 
was very important.
    I am concerned, Mr. Secretary, with the state of our 
economy and the state of U.S. manufacturing as well. The March 
Manufacturing Output Index slipped to .2 percent from .8 
percent, which is a dangerous sign in my mind that our economy 
is slowing due to high cost of transportation.
    It is clear when I am home in Illinois that what 
manufacturers are asking of the Federal Government--they want a 
fair and competitive tax code, they want less intrusion from 
Federal agencies, and they want a sound supply of affordable 
energy. They simply want a level playing field to be able to 
compete with other countries overseas. I hope that you will be 
able to discuss some of the work you are doing to make America 
competitive again.
    And with that, I guess I will yield back.
    Mrs. Bono Mack. I thank the gentleman and now we will turn 
our attention to the panels. We have two panels of witnesses 
joining us today. Each of our witnesses has prepared an opening 
statement that will be placed into the record. Each of you will 
have 5 minutes to summarize that statement in your remarks.
    On our first panel we have the Honorable John Bryson, 
Secretary for the United States Department of Commerce. Good 
morning, Secretary Bryson. It has always been a pleasure to 
work with you. As a fellow Californian, we have had a long 
history together. I welcome you to our subcommittee and I am 
very thankful that you are here. We look forward to working 
with you closely on this and many other important issues. You 
will be recognized, as I said, for 5 minutes. To help you keep 
track of time, the timer is right in front of you. When it 
turns yellow, you will have 1 minute to try to sum up if you 
could. Please remember to turn the microphone on and bring it 
close to your mouth so the audience at home can hear your 
remarks. And with us again, welcome, Mr. Secretary. You are 
recognized for 5 minutes.

 STATEMENT OF JOHN E. BRYSON, SECRETARY, DEPARTMENT OF COMMERCE

    Mr. Bryson. Thank you, Chairwoman Bono Mack. We have worked 
together for many, many years. I appreciate working with you 
here on this.
    Mrs. Bono Mack. Especially if you are complimenting the 
chairman, it is a good thing to have the microphone very close 
to your mouth.
    Mr. Bryson. How is that?
    Mrs. Bono Mack. Much better. Thank you.
    Mr. Bryson. All right. So I said thank you to the 
chairwoman and now to the Ranking Member Butterfield and to all 
of you, the members of this subcommittee. We thank you for your 
support for the incredibly diverse array of manufacturers in 
your districts and throughout the United States. Today, I am 
pleased to provide an overview of the administration's efforts 
to support manufacturing.
    After a decade in which we lost six million manufacturing 
jobs, as you know and some of you touched on this, we are now 
seeing positive momentum in U.S. manufacturing. Over the past 
25 months, our manufacturers have created nearly half a million 
jobs. So that is the best streak in the United States since 
1995. And 120,000 of those came just in the last 3 months.
    I travel widely visiting manufacturers. Last week, I saw 
this firsthand in Tennessee. For example, I saw there a new, 
just-constructed one million square foot Whirlpool facility. It 
is now the largest cooking product facility of its kind in the 
world, extraordinary. And these examples are important because 
manufacturing jobs tend to be high-paying jobs with good 
benefits for middle-class working families.
    And manufacturing is truly key to America innovation and 
competitiveness. Manufacturing accounts for 70 percent of our 
private sector R&D, 90 percent of our patents, and 60 percent 
of our total exports, including a record 1.3 trillion in goods 
exported last year. So today, I think we all agree need to 
build on this moment. And I heard it in your comments. After 
all, if we lose the ability to turn American ideas into 
American products, if we lose that, our innovation chains would 
break and we would lose our long-term capacity to compete and 
create jobs.
    As you have seen in my written testimony, we are focused on 
four key areas at the Commerce Department. I will touch on 
these quickly. First, promoting innovation and protecting 
intellectual property; second, establishing regional 
manufacturing partnerships; third, promoting investment and 
trade; and fourth, providing information and analysis on the 
manufacturing sector.
    On a broader scale, the President has laid out a number of 
proposals to support U.S. manufacturing. For example, he has 
proposed that we reform our corporate tax code for the first 
time since the 1980s. This would lower the effective rate for 
U.S. manufacturers to 25 percent. Also, through the Commerce 
Department at NIST, the National Institute of Standards and 
Technology, the new budget, the 2013 budget requests $1 billion 
for a national network of manufacturing innovation. And this 
would help maximize the industry strengths in each of our U.S. 
regions. I will comment on that later if you would like to go 
into that.
    Overall, our focus at the Commerce Department is powerful 
and sharp. The way we express it is build it here and sell it 
everywhere. Manufacturing--build it here, sell it everywhere.
    I want to close by thanking you for continuing to support a 
vibrant and dynamic manufacturing base. Thank you for passing 
H.R. 4105, the bipartisan GPX legislation. This allows our 
manufacturers to challenge and seek relief from unfairly 
subsidized products entering our market. Efforts such as these 
will help strengthen our recovery, create more jobs, and ensure 
that American manufacturing continues to lead in the 21st 
Century.
    I am pleased now to take your questions.
    [The prepared statement of Mr. Bryson follows:]
    [GRAPHIC] [TIFF OMITTED] 81915.005
    
    [GRAPHIC] [TIFF OMITTED] 81915.006
    
    [GRAPHIC] [TIFF OMITTED] 81915.007
    
    [GRAPHIC] [TIFF OMITTED] 81915.008
    
    [GRAPHIC] [TIFF OMITTED] 81915.009
    
    [GRAPHIC] [TIFF OMITTED] 81915.010
    
    [GRAPHIC] [TIFF OMITTED] 81915.011
    
    [GRAPHIC] [TIFF OMITTED] 81915.012
    
    [GRAPHIC] [TIFF OMITTED] 81915.013
    
    [GRAPHIC] [TIFF OMITTED] 81915.014
    
    [GRAPHIC] [TIFF OMITTED] 81915.015
    
    Mrs. Bono Mack. Thank you, Mr. Secretary. I will recognize 
myself for the first set of questions.
    And my question to you begins with the Manufacturing 
Council was intended to be a strong voice advising the 
government of the private sector's views on issues that affect 
manufacturing, yet that voice is not always heard by the 
regulatory agencies, most notably the EPA. What can you do to 
make sure that other Federal agencies pay attention to the 
needs of American manufacturers?
    Mr. Bryson. Let me address the Manufacturing Council; then 
I will touch on the EPA point if I could.
    Mrs. Bono Mack. Sure.
    Mr. Bryson. So the U.S. Manufacturing Policy Council, which 
I chair across the entire Federal Government, is a big step to 
bring all the departments together so that we operate exactly 
with the same perspective, the same voice. We reduce 
redundancy, we work across Federal departments--the Department 
of Defense, Department of Energy, and so on. So I think that is 
a way to reduce the bureaucracy, to be more productive, to be 
more efficient.
    With regard to the point about EPA and regulation, I can't 
address specifically the EPA issues, but if I could, I will 
just touch generally on regulation. I regret I just, you know, 
don't know the specifics of the EPA regulation very well, but 
what the President has done and what I strongly believe in--and 
I hear it all the time and I work with manufacturers a lot--is 
we have to reduce regulation to the maximum extent we possibly 
can. And what the President has repeatedly said is we will 
allow regulation only to the extent it is essential to our 
economy, the growth in the economy, the national security, and 
to education. So those are the criteria, and as a consequence, 
for example, I think it is pretty widely known that the level 
of regulation and new regulation is less than the first 3 years 
of this administration than the comparable 3 years in the prior 
administration. We have to keep working very hard on that.
    Mrs. Bono Mack. Thank you, Mr. Secretary. In the sake of 
time because I know we have a time crunch, I am going to cut my 
questioning short recognizing that you and I spent a fair 
amount of time together yesterday and you answered a whole host 
of my questions. So at this point I am going to yield back my 
time and recognize Mr. Butterfield for 5 minutes.
    Mr. Butterfield. Thank you.
    Mr. Secretary, the steel industry is a major employer in my 
district employing hundreds of hardworking men and women with 
solid jobs that they can support their families with. The 
industry is still recovering from the Great Recession and 
increased imports of low-priced imports have hampered that 
recovery.
    Specifically, imports of hot rolled steel from Russia have 
surged into the U.S. market increasing by more than 50 percent 
between 2010 and 2011. There is a trade agreement covering 
these imports, and in fact, the Commerce Department and the 
U.S. International Trade Commission ruled last year that this 
remedy should stay in place to prevent injury to the industry. 
However, the remedy is no longer effective in preventing 
dumping. The pricing mechanism in the agreement is so outdated 
it literally gives Russian producers a license to dump their 
steel in the U.S. My constituents brought this to the attention 
of the Commerce Department and I understand that you may be 
currently negotiating with the Russian Government to update the 
agreement so that it reflects current conditions and is 
effective in preventing dumping.
    Can you give me and my colleagues an update on those 
efforts? Can you assure me that you will hang tough and make 
sure the agreement is revised in a way that prevents further 
injury to the industry and workers? I appreciate you giving 
this matter the urgency that it deserves.
    Mr. Bryson. We have the responsibility in the Commerce 
Department to see to it the trade laws are respected, honored 
and we prosecute many, many cases in which it appears there has 
been anti-dumping countervailing duties that we needed to 
impose because subsidies and other means of undermining U.S. 
manufacturing were being hurt. I don't know the Russia case. I 
will have to get back on that to you later.
    Mr. Butterfield. Thank you. Please do that. That is a big 
deal----
    Mr. Bryson. Yes.
    Mr. Butterfield [continuing]. To the steel industry.
    Mr. Bryson. I understand.
    Mr. Butterfield. Mr. Secretary, we have heard all sorts of 
reasons for why there has been a long-term decline in 
manufacturing. We have heard it is because of labor costs, we 
have heard it is because of currency manipulation, we have 
heard it is because other countries invest substantially more 
in that sector. The list goes on and on but after reading the 
New York Times article, ``How the U.S. Lost Out on iPhone 
work,'' I am not sure these reasons accurately depict the role 
of overseas workers in the shift away from U.S. manufacturing.
    According to the article, one reason manufacturing plants 
locate in China is the ability to scale up and down so easily. 
In China, a manufacturer was able to hire 3,000 people 
overnight and of course it could fire them all 3 weeks later if 
necessary. It hired 8,700 industrial engineers in 15 days, 
which could take about 9 months in the U.S. Also, it was given 
access to a warehouse filled with glass samples free of charge 
and the engineers were made available at no cost and were 
staying at onsite dorms to be available 24 hours a day.
    Mr. Secretary, we know that we can compete on scale and 
ideas. Americans are hard workers. When we hear this talk about 
speed and flexibility, are we really talking about an overseas 
workforce conditioned to work 12- to 16-hour shifts and live in 
dorms next to the plant? Is that really what we have in mind?
    Mr. Bryson. Mr. Congressman, I think you raise an extremely 
important point. We have the responsibility at the Commerce 
Department to see to it that trade laws are honored. And we 
take many, many cases and many cases relative to China in which 
we go forth with that. So to give you a little background on 
what we do--and let me start with a special thanks to this 
Congress--GPX, that was an action that you took at the request 
of the President and we were deeply involved as the Commerce 
Department to see to it that the tens of thousands of American 
jobs in the 38 States that were being attacked by, we believe, 
unfairly subsidized imports in non-market economy countries--
China would be one of those--and you passed the legislation out 
at our request and it puts us in this position. Several things 
we have done plus now the protection of those steps, we have, 
as of February 2012, 283 antidumping countervailing CVD orders 
in place, which puts tariffs on 120 products. So there is a lot 
more to do.
    For example, in March the administration recently filed a 
case in China's exports on rare earth. It is a violation we 
believe of the World Trade Organization rules. It is a policy 
designed by China to force manufacturing to relocate to China 
and to limit foreign competition. So we have to keep doing 
that. We do it with a very capable and large team of people and 
these things are done under U.S. law and U.S. requirements.
    Mr. Butterfield. Thank you.
    Mrs. Bono Mack. Thank you, Mr. Butterfield.
    And the Chair now recognizes Mr. Stearns for 5 minutes.
    Mr. Stearns. Thank you, Madam Chairwoman.
    Mr. Secretary, I come from this a little perhaps 
differently than you. You talked in your opening statement 
about an energy plan. The energy plan that I think you and the 
administration supports is based upon using solar panels, wind 
panels, solar thermal devices and things like that. so it seems 
to me if we are talking about where are the jobs, if we use our 
natural resources in this country--fracking of gas, oil and 
shale, burning clean coal, offshore drilling, ANWR, the 
Keystone pipe--all those things would create a plethora of new 
jobs. And towards that end, I think that is where we come from 
a different perspective here.
    I read in a quote in the L.A. Times recently that you 
support the reauthorization of the Export-Import Bank. Is that 
true? And I think that is in your statement here that you are 
asking for Congress to continue to reauthorize it. That is 
true?
    Mr. Bryson. Yes, it is.
    Mr. Stearns. Yes. Now, one of the things I have with that 
is that when I look at their annual report, they gave $10 
million loan guarantees to Solyndra, and I chair the Oversight 
and Investigation Committee on Solyndra and I found, you know, 
that the due diligence of the Export-Import Bank was 
negligible, and of course, the Department of Energy did not do 
their due diligence and they went bankrupt. And I guess the 
question is is there any guarantee that the American people 
would have that the Export-Import Bank when they go to 
companies like Solyndra and others that are involved with this 
idea of wind panels and solar panels and things like that, what 
confidence do we have that the Export-Import Bank will do their 
due diligence again?
    Mr. Bryson. So let me start within the Solyndra question 
you are raising----
    Mr. Stearns. No, it is not so much Solyndra. It is just 
that you are recommending the Export-Import Bank provide more 
money and lots of it is going to these companies like Solyndra 
so I think you should be aware that before you ask us to do 
this, there should be due diligence and caution the Export-
Import Bank to be careful about giving out money without being 
sure that it is kind of worthwhile. Does that make sense?
    Mr. Bryson. The Export-Import Bank plays a very big role in 
exports.
    Mr. Stearns. No, I understand that. But the point is they 
gave Solyndra $10 million without due diligence. I just want 
make sure it doesn't happen--let me go on. Let me ask you 
another question.
    You have been chairman of the board of BrightSource Energy, 
is that correct?
    Mr. Bryson. I was for a time, yes----
    Mr. Stearns. Yes.
    Mr. Bryson [continuing]. For about 9 months.
    Mr. Stearns. Now, that is another company that, you know, 
this goes into my idea of developing jobs in this country could 
be done through our natural resources and not, you know, 
feathering up a lot of these solar panels and solar thermal and 
wind turbines. For example, when you were the CEO of that, 
didn't that get $1.6 million from the Department of Energy?
    Mr. Bryson. I am sorry. When I was the CEO--I didn't get 
the last part of your question. I was the CEO----
    Mr. Stearns. I was told that the loan guarantee to the 
company that you were CEO was $1.6 million--billion rather, but 
I don't think you got all that. Do you remember how much of 
that that you got?
    Mr. Bryson. I am afraid I don't.
    Mr. Stearns. OK. I understand. I understand. Do you 
remember anything about the loan guarantee that the Department 
of Energy gave the company that you were CEO, BrightSource? Do 
you remember that at all?
    Mr. Bryson. I----
    Mr. Stearns. Just yes or no.
    Mr. Bryson. I will check, but I----
    Mr. Stearns. OK.
    Mr. Bryson. I don't believe my company had--you are talking 
about when I was the CEO of----
    Mr. Stearns. BrightSource. It says the Department of----
    Mr. Bryson. Oh, BrightSource. So that----
    Mr. Stearns. Yes, when you were CEO----
    Mr. Bryson. That was not the company that I was----
    Mr. Stearns [continuing]. Of BrightSource.
    Mr. Bryson [continuing]. Ever the CEO. That was after I had 
stepped down for Southern California Edison, the major electric 
utility in Southern California and the parent company of which 
I----
    Mr. Stearns. No, but at the time of your nomination to the 
Secretary of Commerce on May 31, 2011, you were chairman of the 
board of BrightSource Energy----
    Mr. Bryson. Yes.
    Mr. Stearns [continuing]. Isn't that correct?
    Mr. Bryson. That was that 9-month period, yes.
    Mr. Stearns. OK. So my question is----
    Mr. Bryson. Chairman, not the CEO----
    Mr. Stearns [continuing]. Do you remember getting----
    Mr. Bryson [continuing]. I was on the board, yes.
    Mr. Stearns [continuing]. $1.6 billion from the Department 
of Energy when you were CEO. Do you remember that? Yes or no. 
If you don't, that--I mean I guess the real larger question is 
this idea of----
    Mr. Bryson. The answer is no, I don't.
    Mr. Stearns. You don't remember?
    Mr. Bryson. I don't.
    Mr. Stearns. So the real question is we are giving money to 
a lot of companies that are being provided loan guarantees, 
they are going bankrupt--Abound, Beacon. I mean the list goes 
on. And yet we are talking about jobs. If we gave jobs to the 
natural people where the resources are, we would have 
unemployment down where it is in South Dakota, North Dakota, 
Montana would be down to almost zero. And I guess when you are 
talking about Department of Energy getting $1.6 billion, that 
is a lot of money. And I am sure you are aware in announcing 
this, when I look at these companies, the jobs they create are 
negligible. And I guess the question would be when you as a CEO 
of BrightSource Energy got all this money, how many jobs did 
you create?
    Mr. Bryson. I was never the CEO of BrightSource. I was 
never, ever, ever----
    Mr. Stearns. You were chairman of the board, excuse me. You 
were the chairman of the board. Yes.
    Mr. Bryson. I was chairman of the board, yes.
    Mr. Stearns. And chairman of the board, the question is how 
many jobs were created by this $1.6 billion loan guarantee? And 
that is sort of what all of us are concerned about because we 
are spending all these taxpayers' money, and they are either 
going bankrupt, holding on just by a thread, and yet we are not 
creating any jobs.
    So thank you, Madam Chair.
    Mrs. Bono Mack. I thank the gentleman. Time has expired.
    The chair now recognizes Mr. Sarbanes for 5 minutes.
    Mr. Sarbanes. Thank you, Madam Chair.
    Thank you for being here, Mr. Secretary, obviously a very 
important issue for us. And I want to commend the 
administration and you and other Cabinet-level officials for 
the commitment and I think much more coordinated commitment to 
reviving American manufacturing.
    I am very focused on some of the special initiatives that 
have been undertaken at NIST. You referenced NIST in your 
comments. In particular there is the Manufacturing Extension 
Partnership, which I know you are familiar with. Within that in 
the last couple of years there has been a special outreach 
effort called the Supplier Scouting Initiative. And I don't 
know if you are familiar with that or not, but basically, the 
idea there is to work harder to find a match between these 
contracting opportunities with the Federal Government and 
domestic manufacturers and suppliers and vendors so that we 
don't have as many instances where somebody is applying or 
asserting that a waiver should be granted from, say, a Buy 
American provision--excuse me--because in fact if you look a 
little harder and you get the word out and you are more 
affirmed in the outreach, you can in fact find American 
manufacturers and suppliers, you can do the job so you don't 
have to deploy these waivers and so forth. And obviously, it is 
better in terms of creating jobs.
    I wondered if you could speak to the potential of that kind 
of outreach. I mean it goes to the question of, you know, doing 
better with creating clearinghouses of information that can 
connect these opportunities in the Federal Government with the 
suppliers that are out there. And you can speak to the Supplier 
Scouting Initiative if you have some knowledge of it or you 
could speak more generally to these efforts that we need to 
make to connect the dots for people and also if you have a 
sense of which agencies among the Federal agencies are doing 
the best job. I have been impressed with the Department of 
Transportation's efforts, and Secretary LaHood has within sort 
of discretionary authority to be more affirmative. He has 
really stepped up and done that and maybe you have some 
impressions as well of that agency's work and some of the 
others across the Federal platform that are trying to really 
reach out and bring in those American manufacturers.
    Mr. Bryson. I can give you an initial response. I am only 
slightly informed about the Supplier Scouting portion of this. 
That is new. It is done across several departments as you are 
suggesting. Let me start with the Manufacturing Extension 
Partnership Centers. They are in all 50 States. I think what 
you are affirming is they have made an enormous difference in 
the development particularly of small- and medium-sized 
manufacturing businesses because they work with those 
businesses and they work, for example, in training programs 
that are in support of those businesses. And we increasingly 
strengthen our manufacturing base through this Manufacturing 
Extension Partnership.
    Once again, manufacturing, we have this goal. Make it here, 
sell it everywhere, and the Scouting Initiative, as I 
understand it, it is one that has worked as you are 
suggesting--and I don't know the Department of Transportation 
case--but has been valuable in working over other Federal 
agencies and has potential value that we would like to move 
forward, but I will get back to you on--we have not done this 
yet to my knowledge, so I believe what is going on at NIST 
right now is further work on taking that kind of an initiative.
    Mr. Sarbanes. Well, I am very supportive of it and we want 
to avoid looking back from the future and having vendors and 
subcontractors and other American manufacturers out there when 
they are told that an agency said, well, we couldn't find 
anyone who could fill this niche or do this job and then you 
have a whole bunch of folks who would raise their hands and 
say, well, we were there; we could have done it.
    Mr. Bryson. Yes.
    Mr. Sarbanes. But we didn't know, the effort wasn't made, 
and so I think there are things underway that will bridge that 
gap. The Scouting Initiative is certainly one of them. There 
are others and I commend the agencies that are moving forward 
with it.
    And I yield back. Thank you, Madam.
    Mrs. Bono Mack. I thank the gentleman.
    Mr. Bryson. I am 100 percent firm we want it done here in 
the U.S. We want it done at all levels right here in the U.S. I 
agree. Excuse me.
    Mrs. Bono Mack. I thank you.
    And I am going to recognize Mr. Harper for 5 minutes, but 
before you start, I just want to remind Members that the 
Secretary has to be out of the door by 12:15 to catch a plane 
and I know we are all sympathetic to that. So if you could be 
judicious with your time in hopes that we can give every Member 
an opportunity to ask their questions.
    Mr. Harper, you are recognized for 5 minutes.
    Mr. Harper. Thank you, Madam Chair.
    Thank you, Mr. Secretary, for being here. Now that I have 3 
minutes it appears instead of 5 I will try to move through this 
as quickly as I can, but thank you for your attendance today 
and appreciate your time here.
    And, you know, I am very fortunate in my district to have a 
very aggressive economic development university in my district 
in Mississippi State University. They realized a long time ago 
that a major land grant institution, you know, can serve as a 
strong catalyst for a lot of economic development from 
generating spinoff advanced manufacturing companies from 
research but also assisting in attracting major industry into 
the State by providing that cutting-edge research that is 
available. And it benefits not only the university and the 
State but private industry as well.
    And you mentioned the Advanced Manufacturing Partnership, 
or AMP. Will universities like Mississippi State be able to 
play a role in that partnership and will AMP expand on what 
Mississippi State and other universities are already doing?
    Mr. Bryson. Yes. The idea of this what is called NNMI, this 
initiative which is in our budget this year one time out of 
NIST, and the idea of this is to really work hard on the 
advanced manufacturing of the future, of this year, next year, 
years beyond this because we are the leader in the world in 
manufacturing. We are the leader in manufacturing, but advanced 
manufacturing is where this sector, as you know from 
Mississippi State, is going.
    Mr. Harper. Yes.
    Mr. Bryson. And so what we have to be very smart about is 
the very best advanced technologies for application in 
manufacturing. And the reality is technology is going to be a 
big part of this, and we have to work with these outstanding 
universities. So this NNMI initiative is to bring together just 
what you are describing, the outstanding universities working 
in this area, the outstanding private sector leaders that are 
working in this area, working in the labs with NIST, the 
National Institute of Standards and Technology. And the plan is 
to build as many as 15 of these around the United States 
regionally. In other words, the greater Mississippi areas, the 
teams that you might work with there would absolutely be a 
place where there would be special strength that you would 
bring and there are other places around the country. So the 
idea is to do this and we want to move as fast as we can on 
this.
    Mr. Harper. Right. Mr. Secretary, we also are very proud to 
have in my district in Flowood, Mississippi, a Nucor steel 
plant. And they have, you know, gone through a lot of difficult 
times, you know, when the demand for steel fell below 50 
percent, they still didn't lay off a single worker. It is a 
great story there. While the market has gotten better--and you 
touched on this with Mr. Butterfield--and, you know, a surge of 
imports of rebar from other countries are kind of stopping this 
recovery in its tracks. And so, you know, my understanding is 
there are certain countries, as we sort of touched, on that do 
not have maybe a natural economic advantage to produce steel 
and some even import steel scrap from the United States in 
order to produce their steel products. It does seem that some 
of these governments in these countries may be subsidizing 
their steel industry. You said I believe that it is imperative 
the Department of Commerce look into that and we certainly 
encourage you to do so.
    With that, I will yield back the balance of my time.
    Mr. Bryson. Thank you. Yes.
    Mrs. Bono Mack. I thank the gentleman.
    The Chair recognizes Mr. Dingell for 5 minutes.
    Mr. Dingell. Madam Chairman, thank you and I commend you 
for the hearing.
    I want to welcome my old friend, Secretary Bryson, here. 
Mr. Secretary, welcome. He has a distinguished record as a 
public servant and also as a very successful businessman who 
was interested in his community and produced great things. 
Welcome and we are delighted you are with us.
    Mr. Bryson. Thank you.
    Mr. Dingell. It is clear to me that manufacturing and 
innovation are connected and in order to equip future workers 
with technical skills, it is now more important that we work 
hard on this than ever. I had some questions I think would be 
useful in us understanding what the administration is doing. 
This will require a yes or no.
    Mr. Secretary, is it correct that for every $1 of Federal 
investment in MEP, American manufacturers generate 
approximately $30 in new sales growth and that that growth is 
shown to result in close to $4 billion in new sales annually?
    Mr. Bryson. Yes.
    Mr. Dingell. Thank you, Mr. Secretary. Now, is it true that 
MEP helped----
    Mr. Bryson. You have worked in this for a long time and I 
respect it enormously, yes.
    Mr. Dingell. Well, I don't mean to hurry you in your 
response----
    Mr. Bryson. No, I don't feel hurried at all.
    Mr. Dingell. These questions are given with respect but we 
have very little time, as you can observe.
    Mr. Secretary, is it true that MEP helped create 19,000 
jobs and retain over 40,000 jobs in fiscal year 2010?
    Mr. Bryson. Yes.
    Mr. Dingell. And that was a year of depression, was it not, 
or recession?
    Mr. Bryson. Yes.
    Mr. Dingell. The administration has requested level funding 
for MEP in fiscal year 2013, about 128 million, is that 
correct?
    Mr. Bryson. Yes.
    Mr. Dingell. So you are telling me that the 128 million 
investment in this will yield close to 4 billion in new sales, 
is that correct?
    Mr. Bryson. That is exactly right.
    Mr. Dingell. It seems like a good investment to me.
    Now, Mr. Secretary, I would simply observe that we ought to 
be quarrelling up here whether we are going to put that much 
money in or whether we are going to put more because it seems 
to be an investment that pays off and that a sensible 
businessman would like it very well. Do you agree with that 
statement?
    Mr. Bryson. I do agree.
    Mr. Dingell. Mr. Secretary, a lot of companies depend on 
very expensive software for advanced manufacturing such as 
Ford, Chrysler, and GM in my district. The software is more 
often than not developed by American firms. American 
manufacturers purchase software legally but I am sure many 
companies overseas pay nothing for pirated software and use it 
without a license. That puts our people at a tremendous 
disadvantage. What can the administration do to level the 
playing field for honest manufacturers that lawfully purchase 
software and other information technology that they use? I 
think, Mr. Secretary, given our time problem, you should give 
me a brief answer and then I should request that you submit 
further comments for purposes of the record. Thank you. Go 
ahead, Mr. Secretary. Give me a response. We have a minute, 59 
seconds.
    Mr. Bryson. It is absolutely unfair that our intellectual 
property be taken from us without compensation and be used 
elsewhere as if it was not originated here. So we need to stand 
strong against that and I won't go further but I can commit 
something. I would like to tell you about the instances in 
which the Commerce Department in various ways has addressed 
that issue. I won't take that time right now.
    Mr. Dingell. Now, Mr. Secretary, we lose twice at this. 
Once our software people lose and very significant and then our 
manufacturers pay higher prices than do the people that use or 
buy or acquire in other ways knockoff software. Is that right?
    Mr. Bryson. That is entirely right.
    Mr. Dingell. And that hurts us twice?
    Mr. Bryson. It does.
    Mr. Dingell. Mr. Secretary, it is a pleasure to see you 
here. Thank you.
    Mr. Bryson. Thank you.
    Mr. Dingell. Mr. Secretary, with your help, I yield back 58 
seconds.
    Mrs. Bono Mack. Thank you, Mr. Dingell.
    The Chair recognizes Mr. Lance for 5 minutes.
    Mr. Lance. Thank you very much, Madam Chair.
    And good morning to you, Mr. Secretary. It is my honor to 
meet you here today, sir.
    The innovative U.S. biopharmaceuticals sector generates 
high-quality jobs and enormous economic output and exports for 
the economy of this country. As I understand it, nationwide, 
the total economic output from the biopharmaceutical sector in 
direct, indirect, and induced impacts was almost a trillion 
dollars and the sector supported a total of four million jobs 
in 2009, including 700,000 direct jobs. The district I serve in 
New Jersey is arguably the medicine chest of the United States. 
What is the administration doing, Mr. Secretary, to retain this 
country's global leadership position in biopharmaceutical R&D 
and manufacturing?
    Mr. Bryson. I know generally your district and we are 
seeking to advance U.S. pharmaceuticals through the 
International Trade Administration in many, many ways and 
perhaps you are aware of that----
    Mr. Lance. I am, sir.
    Mr. Bryson [continuing]. Work. We stand strong country 
after country after country with respect to those 
pharmaceuticals, and that may be the most important respect in 
which we work on these things. And, you know, I am just going 
to take it as a very large number of countries around the world 
in which our commercial foreign services officers are working 
on this virtually daily. I, for example, have just come back 
from India. I had a trade mission taking U.S. businesses to 
India. About 2 weeks ago, there for a week. Pharmaceuticals 
came up again and again and we strongly support.
    Mr. Lance. I thank you. I look forward to working you and 
the Department in this area.
    Related to my last question, there is a trade agreement, 
the Trans-Pacific Partnership, which the United States is 
currently negotiating with eight countries in the Asia Pacific 
region. Ensuring strong IP protections abroad for all U.S. 
industries will be critical to our economy and to American 
jobs. I strongly urge that the administration secure strong 
pharmaceutical IP provisions in the Trans-Pacific Partnership, 
including 12 years of data protection for biologics so that all 
American manufacturers can benefit from these agreements and I 
would invite you to comment on that, sir.
    Mr. Bryson. Yes, and I would like to comment on that. 
Trans-Pacific Partnership is a high-grade form of free trade--
--
    Mr. Lance. Yes.
    Mr. Bryson [continuing]. Arrangement, so we have these 
agreements now. And what we need to do is bring them to greater 
specificity and expand them more broadly across the Pacific 
Rim, Southeast Asia, those countries. And this is the 
President's stance for this--and I enormously stand for it--
because what we have to have in these agreements is not the 
kind of agreements that have so many holes in them that, for 
example, are incredibly able. The pharmaceutical industry may 
be left out to some degree. We can't afford that. This is what 
we need to do with the talent we have in this country, so 
absolutely, I am supportive of that.
    Mr. Lance. Thank you very much. I look forward to working 
with you on this and other issues.
    And Madam Chair, I yield back 1 minute, 13 seconds.
    Mrs. Bono Mack. Thank you, Mr. Lance.
    Mr. Rush, you are recognized for 5 minutes.
    Mr. Rush. Thank you, Madam Chair.
    Mr. Secretary, I commend you for your leadership and for 
the vision that you are bringing to the agency.
    You have the difficult task of advancing the President's 
manufacturing agenda at a time when U.S. corporations are 
facing global competition, at a time when American corporations 
are losing market share to growing export countries like China, 
Southeast Asia, and India. The policies you are currently 
implementing aim at ensuring the U.S. access to global markets 
and to enable manufacturers to reach 95 percent of consumers 
who live outside of our borders.
    I would add that our industries not only have to be 
competitive but they also need to be one of the fastest in 
terms of the market share gain before we would be able to 
reduce the incurring trade deficit. Obviously, we have to be 
innovative, proactive, and not overlook any market. And in 
light of this, I am curious to know which particular markets 
are you targeting in your investment strategy? In other words, 
which markets do you think are right to receive American 
products?
    And I have another question, and I will ask these 
questions. Nowhere in your statement--and I might be wrong--
have I seen reference to the African market, which according to 
many reports is the fastest-growing region in the global 
economy. You are aware, I am sure, of the Economist article 
that states that over the past 10 years, ``no fewer than six of 
the world's 10 fastest-growing economies were in sub-Saharan 
Africa.'' And the only BRIC country to make the list of the top 
10 is China, which comes after Angola. And predictions are that 
Nigeria, Ethiopia, Chad, Mozambique, Tanzania, the Congo, 
Ghana, and Rwanda are projecting to increase and take the lead 
and that Africa's economy will go at an average annual rate of 
7 percent over the next 20 years, slightly faster than China's.
    And also according to The Economist and other reputable 
sources, the last Secretary of Commerce who visited Africa was 
Secretary Evans, who visited in 2012. So--and also I want to 
just add that if we double our exports to Africa, we can create 
up to 315,000 jobs domestically. So the question is, What 
regions are you targeting for the export of the U.S. that your 
department is targeting and how do you feel about the market in 
Africa? And are you planning on visiting Africa in the near 
future, to take a delegation to Africa?
    Mr. Bryson. Thank you very much, Congressman.
    The question of targeting exports, we target all over the 
world, all over the world. So, for example, I am just back, as 
I indicated, from India, took 16 U.S. outstanding businesses. I 
think things will follow very positively. We already have some 
arrangements.
    With regard to sub-Saharan Africa, though, I have 
personally been there. In this new role, I have not been there 
yet. I would like to talk with you a little further about the 
opportunities you see there. I have been meeting with senior-
most leaders from sub-Saharan Africa to a degree. For example, 
I met with the--is it Prime Minister or President of Ghana when 
he was here. I have met senior officials from Nigeria when they 
were here. In my own business I did quite a lot in South 
Africa. That was in my energy business. But I think you are 
right that that deserves priority and focus and I would like to 
go further with it and I would like to talk to you about any 
ideas you have about how we might take that further.
    Mr. Rush. Madam Chair, I yield back 5 seconds.
    Mrs. Bono Mack. Thank you for your generosity.
    The Chair recognizes Dr. Cassidy for 5 minutes.
    Mr. Cassidy. Thank you, Mr. Secretary. Mr. Secretary, I 
have a PricewaterhouseCoopers article which speaks about how 
the availability of shale gas has just been tremendous in terms 
of jumpstarting manufacturing. For example, lower feed stock 
and energy costs could help U.S. manufacturers reduce natural 
gas expense by almost $12 billion annually through 2025 and 
that because of this there may be one million more workers 
added by 2025 in manufacturing, really tremendous. Now, my 
concern is if we take the old John Marshall maxim, the power to 
tax is the power to destroy, the President's insistence upon 
denying energy companies the same manufacturing tax incentives 
as other manufacturing companies, does that denial of a Section 
199 for an energy company imperil or at least potentially harm 
the manufacturing renaissance we are enjoying because of the 
work these energy companies are doing?
    Mr. Bryson. Let me address the energy and then I will do 
what I can on the tax--I am not an expert. Tax is really one 
out of the U.S. Treasury, not the U.S. Commerce.
    Mr. Cassidy. But it is so interrelated to the ability of a 
manufacturing company to do so; that is why I raise the point 
now.
    Mr. Bryson. And I have indicated what the President has set 
out for manufacturing companies, but let me also say to you I 
absolutely agree that your point about the incredible value to 
the United States now of this natural gas find so that we 
become more dependent on U.S. sources of all forms of energy, 
which is just the position we most want to be in. So it 
enhances our national security and reduces the risk----
    Mr. Cassidy. I totally accept that----
    Mr. Bryson. Yes.
    Mr. Cassidy [continuing]. So with your business background, 
if you raise the cost of the company to produce that energy, 
which in turn increases the input cost for the manufacturing 
companies which depend upon that energy, won't you decrease the 
competitiveness if you will of our manufacturers vis-a-vis 
those in other countries? Our input costs are raised because of 
tax policy, whatever, imperiling our ability to compete. 
Doesn't that just make sense?
    Mr. Bryson. Yes, getting taxes right in our country for 
business is very important. I can't give you a response on the 
specifics. I just don't know in the case you are describing.
    Mr. Cassidy. Now, next question--thank you. You said 
earlier build it here and sell it everywhere. Would you accept 
that this should also apply to the export of natural gas-based 
products?
    Mr. Bryson. What I am trying to puzzle through in my mind 
as you are asking this is with regard to manufacturing in every 
respect I am in favor of build it here and sell it everywhere. 
If you take me deeper into the manufacturing component of what 
you are addressing, I will say if it is manufacturing, that is 
what I am supporting and we are working hard in every way. And 
I think you would find, for example--well, I have been very 
supportive, for example, with the U.S. oil companies in 
supporting their overseas positions. I am very strongly 
supportive of that.
    Mr. Cassidy. So some would argue that we should not explore 
natural gas or natural gas refined products.
    Mr. Bryson. Yes, I----
    Mr. Cassidy. You would accept if we have an abundance of 
natural gas, you would accept that that or its refined products 
could be exported?
    Mr. Bryson. I would, yes.
    Mr. Cassidy. OK. That is fine. I have plenty more questions 
but I yield back for my colleagues.
    Mrs. Bono Mack. I thank the gentleman and now recognize Mr. 
McKinley for 5 minutes.
    Mr. McKinley. Thank you, Madam Chairwoman.
    Mr. Secretary, I have got a question. Back in Pittsburgh in 
2008 then-candidate Obama was very aggressive in contending 
that China was manipulating its currency. Is China still 
manipulating its currency? Remember, he said they were. Are 
they still?
    Mr. Bryson. I believe that China is still manipulating its 
currency. I believe that currency still is lower than the 
market price.
    Mr. McKinley. What he went on to say in his remarks, Mr. 
Secretary, he said if they are, then we are going to start 
shutting off access to our markets. What market have we shut 
off?
    Mr. Bryson. Say it to me again.
    Mr. McKinley. He said if they are going to continue 
manipulating their currency, we are going to start shutting off 
access to our markets. I am curious which markets now 3 years 
into his administration has he shut off?
    Mr. Bryson. Let me address what is within my area of 
responsibility. The Department of Treasury deals with the tax 
issues, deals with the currency issues, but what we are 
responsible for at the Department of Commerce is seeing to it 
that there is no violation of trade laws. And it is important, 
in direct response to your question, that anything that is 
done, for example, out of China or any other----
    Mr. McKinley. OK. You are saying it is not in your 
department, then?
    Mr. Bryson. What I am saying is that the reason that we 
have right now the very, very large number of orders that make 
it such that we impose heavy tariffs on goods that come from 
these countries is an offset to the fact that they are 
subsidizing unfairly under those laws----
    Mr. McKinley. OK.
    Mr. Bryson [continuing]. So that is----
    Mr. McKinley. Maybe if you could get back to us with a 
little bit more in writing, I would appreciate that. If you 
could maybe explain it because we are short time on this and I 
would like to understand--you have acknowledged that they are 
manipulating their currency.
    The second is you made an interesting remark that I 
appreciated----
    Mr. Bryson. Let me just say if I could we can refer that to 
the U.S. Department of Treasury. I would be happy to refer it 
to them. That is where the judgment is reached about Treasury.
    Mr. McKinley. The second issue that you made an interesting 
remark earlier about how they were reining in some of the 
regulatory effects and you said as long as it doesn't have an 
impact on manufacturing and jobs, but yet we are already seeing 
that using the Clean Air Act, the EPA has now caused up to 
approaching 40 gigawatts of power. Coal fire generating plants 
have now indicated they are going to shut down. So would you 
not suggest that that probably is going to increase the cost of 
electricity to some manufacturers when you have over 10 percent 
of our electric generating plants closing? Isn't that likely to 
increase the cost of utilities?
    Mr. Bryson. You will have to give me a little more on the 
case in point, but let me say in general what the President has 
stood for very strongly is limiting, reducing----
    Mr. McKinley. I hear what he stands for, but it is what he 
is doing, he is allowing to happen. Does the Commerce recognize 
that decreasing electric generating facilities is likely to 
increase the cost of electricity? Yes or no?
    Mr. Bryson. Let me address regulation and then I will 
address utilities briefly if I could. The regulation is the 
only thing that is allowed in this administration with regard 
to regulation is things that bear strictly on health, safety, 
and security. That is it. That is all. So what, as perhaps you 
have seen in some EPA cases, for example, the President has not 
allowed those to go forward.
    With regard to happens to utility power costs, new forms of 
generation are less expensive than old forms of generation in 
many cases.
    Mr. McKinley. If they are subsidized I suppose I would go 
along----
    Mr. Bryson. No, no, no----
    Mr. McKinley. The last comment that the Congressman from 
New Jersey mentioned about the letter about Russia. This is a 
letter sent to you in February, February 17, so for your staff 
to be able to find that there was a letter directed to your 
attention on February 17 asking--so perhaps they need to 
communicate that to you.
    Mr. Bryson. All right.
    Mr. McKinley. Thank you very much.
    Mr. Bryson. Thank you.
    Mrs. Bono Mack. All right. The Chair recognizes Mr. Pompeo 
for 5 minutes.
    Mr. Pompeo. Great. Thank you, Madam Chairman.
    Good morning, Mr. Secretary.
    Mr. Bryson. Good morning.
    Mr. Pompeo. Thank you for joining us. I appreciate your 
enthusiasm for the growth of American manufacturing. I 
represent south central Kansas. It is the air capital of the 
world. The President has more times than we have minutes 
remaining in our day talked about corporate fat cat jet owners. 
We have one of the last great manufacturing jewels left in 
America that has not asked for a dime, doesn't want a grant, 
doesn't want a loan, doesn't want to be bothered, would just 
like to have your supervisor, President of the United States, 
stop talking down this incredibly important industry. Can you 
walk me through how he thinks the customers for these union 
workers, these engineers that live in the heartland of America 
who are building these airplanes, how talking down that 
industry has anything to do with job creation in America?
    Mr. Bryson. So I am sorry, just take me a little further. 
What industry----
    Mr. Pompeo. The general aviation industry. We have Cessna 
and Beechcraft and Learjet and Boeing and hundreds of suppliers 
that live in south central Kansas and make their livings 
building these very airplanes that are sold to the folks that 
the President refers to as corporate fat cat jet owners. And it 
hurts the industry when he makes it politically incorrect to 
fly around in a business tool. And so I am asking you what the 
job creation rationale for talking down the aviation industry 
could possibly be?
    Mr. Bryson. My experience--and I know this directly--I was 
for 18-1/2 years a member of the Boeing Board of Directors. The 
President has been very, very supportive of U.S. aviation. And 
when I do the tours that I do around the world I am again and 
again and again espousing U.S. aviation, component parts----
    Mr. Pompeo. Well, I appreciate that.
    Mr. Bryson [continuing]. That is what I do.
    Mr. Pompeo. I appreciate that. It is an incredibly 
important industry. It is one of our largest export industries 
in America. It is incredibly important. He may be supportive of 
it but the things he says when he speaks and his notion that we 
should increase user fees and that he wants to increase taxes 
on generation aviation users are inconsistent with your 
statement that he is supportive of that. So anything you can do 
to help make sure that folks want to use these as business 
tools, they are very efficient. They are a great product and we 
make them here in the United States of America.
    I want to turn to a second topic. You said you go out to a 
lot of manufacturers. I actually was a manufacturer for a few 
years before I came here. When you ask them the things that 
restrict their ability to create and grow jobs and they list 
the top three or four, do any of them talk about receiving 
Federal grants as important as their desire to continue to grow 
jobs? Do they say, Mr. Secretary, the most important thing you 
could do for me would be to provide a Federal grant to my 
business?
    Mr. Bryson. In the advanced manufacturing area, 
principally, possibly exclusively the advanced manufacturing 
area, yes, because the focus there is, in a globally 
competitive world, to retain the smarts, the very best 
technologies, the most outstanding means of retaining and 
enhancing our competitive position. In technology in the form 
of advanced manufacturing will be a significant part of that. 
And the role that the Federal Government plays by way of a 
stimulus by the way the kind of work that is done at NIST, so 
right here in this area----
    Mr. Pompeo. Um-hum.
    Mr. Bryson [continuing]. The D.C. area, where we are doing, 
for example, this work on nanotechnology right now, and that 
has opened in every case invited the only such thing, at least 
in the United States, the only thing I know--let us just say in 
the United States----
    Mr. Pompeo. Um-hum.
    Mr. Bryson [continuing]. Where you, as a manufacturer, 
folks down in advanced manufacturing can go and use the lab and 
bring in your best people, the universities that you work with, 
best people, and so on.
    Mr. Pompeo. I appreciate that. But most of the grant 
programs--the Economic Development administration as a good 
example--aren't providing for advanced manufacturing 
technology. These are grant programs that are going to old line 
industries. Do those folks talk about grants? What I hear from 
them is I hear about get the government out of my way, get 
regulation out of my way, and allow me to go grow my job and 
help me with trade so I can have access to markets. I mean even 
the President said when he was campaigning he said we need to 
cut back waste at agencies like the Economic Development 
Administration, his words, September of 2008. I haven't seen 
that. I have seen continued efforts of this Commerce Department 
to try and pick winners and losers in the manufacturing space.
    Mr. Bryson. The Federal Government is involved in 
manufacturing in multiple ways, the Commerce Department is 
involved in multiple ways. The Manufacturing Extension 
Partnership works with so many of these small and medium-sized 
manufacturers and in the communities and in the community 
colleges and so on that work with them. So, yes, there is 
Federal Government that there are dollars associated with that. 
What we try to do is use those dollars really, really well.
    Mr. Pompeo. Well, I----
    Mr. Bryson. In regards to the Economic Development----
    Mr. Pompeo. I am sorry, my time is--go ahead.
    Mr. Bryson. The Economic Development Administration 
likewise small agency, modest budget, very, very tight control 
over cost, and what it does, it is the only Economic 
Development Administration across the entire Federal Government 
and it does things and we could provide you----
    Mr. Pompeo. Well, I would welcome that. I appreciate it. 
Thank you.
    Mr. Bryson. Yes.
    Mr. Pompeo. The Commerce Department has the opportunity to 
do so many good things. I just wish you would spend less time 
trying to redistribute wealth and more time creating 
opportunities for everyone. So I thank you very much----
    Mr. Bryson. Thank you.
    Mr. Pompeo [continuing]. For your time.
    Mr. Bryson. Thank you.
    Mrs. Bono Mack. Mr. Secretary, do you have time for one 
more question from the last Member? If it is a rather brief 
question, the last Member has a quick question for you.
    Mr. Bryson. OK, yes, we can do one more.
    Mrs. Bono Mack. Your staff is indicating they will drive 
quicker to the airport. So the Chair recognizes Ms. Blackburn 
for her question.
    Mrs. Blackburn. Thank you, Madam Chairman.
    And, Mr. Secretary, you have been patient with us today and 
we are appreciative of that. And I know that Congressman 
Dingell asked you a little bit about information technology. In 
my district in Tennessee we have got a lot of performers, as 
well as having a lot of small business manufacturers who 
purchase information technology in order to try to get a 
competitive edge. And then it turns around that they are 
competing with companies in China or Russia or somewhere that 
have stolen that information technology. And what I want to 
know from you is what can you do and can the Federal Government 
do anything about the competitive harms that are caused by the 
theft of that information technology that drives the 
efficiencies and also about other U.S. intellectual property 
that is stolen? And specifically, are you going to put any 
strong IP protections in trade agreements like the Trans-
Pacific Partnership?
    Mr. Bryson. So the short answer is intellectual property 
that we do not get compensated for that is taken in other 
countries and there is no compensation and no recognition of 
where that initially came from is flat out a loss to the people 
in our country who deserve the right to be compensated for what 
they provide, and with that, those people would only make 
better products rather than not getting the compensation they 
should have. So that is our responsibility at the Commerce 
Department to see to it that those obligations are honored, and 
then when it is not done, that we file these mini-proceedings 
against them that I have described earlier to see to it that it 
is done. And that is a nonstop job at the Commerce Department.
    Mrs. Blackburn. OK. And then, are you going to insert 
stronger IP protections with trade agreements like the Trans-
Pacific?
    Mr. Bryson. Yes.
    Mrs. Blackburn. Thank you. Yield back.
    Mrs. Bono Mack. I thank the gentlelady.
    And Mr. Secretary, you have been very gracious with your 
time. We appreciate you being with us today. We all look 
forward to working with you in the future on these issues that 
we all care about so deeply. And together let us just make 
printing help wanted signs a booming business in America. 
Again, thank you for your time. We wish you safe travels.
    Mr. Bryson. Could I put one thing on the record that I have 
just been asked to be sure that I----
    Mrs. Bono Mack. Sure.
    Mr. Bryson [continuing]. Have left some confusion possibly 
with regard to this question that I had about the manipulation 
of currency in China and what I repeatedly answered is that is 
the U.S. Treasury's role. But what I don't want to let not 
stand is that we believe that China absolutely must allow its 
currency to appreciate. That is critical. And thank you very 
much. I apologize for putting this last word in.
    Mrs. Bono Mack. That is OK. I appreciate your clarification 
there. And again, safe travels to and from California and thank 
you for your time. And at this time, we are going to take a 
very brief recess as we seat the second panel.
    Mr. Bryson. Thank you.
    [Recess.]
    Mrs. Bono Mack. --to begin with our second panel. Joining 
us today are Dr. Robert Atkinson, President of Information 
Technology and Innovation Foundation; Alfonso Lubrano, 
President of Materion Technical Materials, Inc., and Vice 
Chairman of National Association of Manufacturers Small and 
Medium Manufacturers; Craig Giffi, Vice Chairman and U.S. 
Leader, Consumer and Industrial Products at Deloitte; and Dr. 
Kenneth Tindall, Senior Vice President, Science and Business 
Development from North Carolina Biotechnology Center.
    Good afternoon. Thank you all for being with us here today 
in front of our subcommittee. You will each be recognized for 5 
minutes. To keep track of time, please watch the timers in 
front of you. When it turns yellow, you have a minute to wrap 
up. And if you can, please make sure to turn your microphone on 
and bring it close to your mouth. The audience at home needs to 
hear you and only they can if you are speaking clearly into the 
microphones.
    Dr. Atkinson, you are recognized for 5 minutes.

   STATEMENTS OF ROBERT D. ATKINSON, PRESIDENT, INFORMATION 
 TECHNOLOGY AND INNOVATION FOUNDATION; AL LUBRANO, PRESIDENT, 
    MATERION TECHNICAL MATERIALS, ON BEHALF OF THE NATIONAL 
ASSOCIATION OF MANUFACTURERS; CRAIG A. GIFFI, VICE CHAIRMAN AND 
U.S. CONSUMER AND INDUSTRIAL PRODUCTS PRACTICE LEADER, DELOITTE 
 LLP; AND KEN TINDALL, VICE PRESIDENT OF SCIENCE AND BUSINESS 
        DEVELOPMENT, NORTH CAROLINA BIOTECHNOLOGY CENTER

                STATEMENT OF ROBERT D. ATKINSON

    Mr. Atkinson. Thank you, Madam Chairman and members of the 
committee. It is a pleasure to be here.
    ITIF has been doing a fair amount of research on what has 
actually happened to the U.S. manufacturing economy and we will 
be releasing a report shortly on what do we need to do to fix 
it. As we have shown in our work, we lost a larger share of our 
manufacturing jobs in the last decade than we did in the Great 
Depression. The consensus among most economists is that this is 
a reflection of superior performance, that all of these jobs 
were lost due to high productivity, and our analysis suggests 
that is only partially true. Some of those jobs were due to 
high productivity. As companies get more efficient, they don't 
have to hire as many workers, which is good for the economy. 
But we argue that at least 2/3 of those jobs were lost due to 
the fact that U.S. companies were not able to be competitive in 
global marketplaces. And my testimony goes into more detail on 
that.
    But just one I think important point there, 13 of 19 
manufacturing sectors actually are producing less today than 
they were in 2000 in real, inflation-adjusted terms. This is 
unprecedented in American history. That has never happened 
before. Every decade before this, we have had expansion of 
manufacturing. We argue that when measured properly, U.S. 
manufacturing output declined 11 percent in the last decade in 
inflation-adjusted terms. And one indicator of that is when you 
look at the amount of capital investment that manufacturers 
make. The Bureau of Economic Analysis measures this. They 
measure what is called capital stock, which is the amount of 
machines, the amount of computers, everything that manufactures 
have. And in most decades since 1940 to the present, capital 
stock is growing about 30 percent a decade, sometimes 50 
percent a decade. In this last decade, it grew 1.2 percent.
    So we think there is a big challenge. We think that we have 
to respond to that challenge. And so what should Congress do? I 
think there are a number of areas that are important. Actually, 
let me just mention I don't want to sound overly pessimistic. I 
think we have big challenges but there are certainly some 
trends in the right direction. We heard earlier in the hearing 
about natural gas and the reduction of input costs to certain 
industries like chemicals. That is an important new benefit 
that the U.S. economy didn't have 5 to 10 years ago. Certainly, 
some costs are going up in countries like China. Many companies 
now are taking a new look at offshore and using full cost 
calculus. So there are some good things happening, but I still 
think we can't just rely on that. We have got to get new policy 
changes.
    What are some of those? Let me just say three major ones. 
One is on the tax side. We have the dubious honor now as of 
April 1 to have the highest corporate tax rate in the world and 
that is also close to on the effective rate. So we have a high 
statutory rate but a knot of studies have shown we have a high 
effective rate as well. So we have got to something on the 
corporate tax side that doesn't just re-jigger the deductions 
and the incentives and leaves the effective rate the same. We 
have got to focus on reducing the effective rate I would argue.
    But as I have argued before, we also should do that in a 
way that keeps key incentives that are critical to 
manufacturers. One of those is MACRS or Modified Accelerated 
Cost Recovery System, which is essentially being able to write 
off equipment sooner than you would otherwise. That is a 
critical incentive. The R&D tax credit and Section 199, 
Domestic Production Deduction, those are all very critical tax 
incentives that help U.S. manufacturers become more 
competitive.
    I think one other area we need to focus on is I would argue 
we should be focusing on a new kind of regulatory review so 
that major regulations have to go through essentially a 
competitiveness screen. There are certainly needed regulations, 
but when you are focusing on impacts of sectors that are 
globally traded, we need to look at that more carefully because 
those could have much bigger impacts than say on sectors that 
don't face global competition.
    Having said that, though, I think it is not enough just to 
focus on cost reduction. Cost reduction is important, but the 
Germans, their wages are 45 percent higher than ours, so we 
also have to get better, not just cheaper. One key area is 
trade. A number of people have talked about that. Our view is 
that there is rampant what we would call innovation 
mercantilism going on in countries like China, Brazil, India, 
Russia, and we simply have to get a lot tougher. And that is 
not about being protectionist. That is about defending 
globalized trade. It is about defending the free trade system, 
which they are systemically violating. And I give the 
administration credit there, but I do think we need to do a lot 
more.
    Last point is technology. I don't think we can win this 
without doing all three things. We have to have the tax system, 
the trade system, but I do argue we have to have a technology 
system. And I give the administration credit and others here 
who have supported things like the MEP program and this new 
national institute, NNMI, National Network of Manufacturing 
Institutes. Many of our major competitors have these kinds of 
industry-university cooperative partnerships that help develop 
advanced technology and get it out to companies. I think we 
could do a better job there as well.
    Thank you very much.
    [The prepared statement of Mr. Atkinson follows:]
    [GRAPHIC] [TIFF OMITTED] 81915.016
    
    [GRAPHIC] [TIFF OMITTED] 81915.017
    
    [GRAPHIC] [TIFF OMITTED] 81915.018
    
    [GRAPHIC] [TIFF OMITTED] 81915.019
    
    [GRAPHIC] [TIFF OMITTED] 81915.020
    
    [GRAPHIC] [TIFF OMITTED] 81915.021
    
    [GRAPHIC] [TIFF OMITTED] 81915.022
    
    [GRAPHIC] [TIFF OMITTED] 81915.023
    
    [GRAPHIC] [TIFF OMITTED] 81915.024
    
    [GRAPHIC] [TIFF OMITTED] 81915.025
    
    [GRAPHIC] [TIFF OMITTED] 81915.026
    
    [GRAPHIC] [TIFF OMITTED] 81915.027
    
    Mrs. Bono Mack. Thank you, Mr. Atkinson.
    Mr. Lubrano, you are recognized for 5 minutes.

                    STATEMENT OF AL LUBRANO

    Mr. Lubrano. Thank you very much, Chairman Mack, and thank 
you to the members of the subcommittee in allowing me this 
opportunity to testify on behalf of the National Association of 
Manufacturers.
    I would like to start off by saying this is an extremely 
exciting time for our country and for manufacturing. I am 
president of Materion Technical Materials in Lincoln, Rhode 
Island. We are a subsidiary of Materion Corporation, which is 
headquartered in Mayfield Heights, Ohio. We have offices 
throughout North America, Europe, and Asia, and we serve 
customers in more than 50 countries.
    Materion Technical Materials is the world's leading 
resource for engineered specialty strip products and offers a 
wide range of products and expertise in numerous markets, 
including automotive and consumer electronics. I have been 
leading the company since 1992. It is my privilege to serve on 
NAM's board of directors. As vice chair of the small to medium-
sized business group, manufacturing group, and on the board in 
general, I also serve as chairman of the Rhode Island 
Manufacturers Association and on ITAC 11 here in Washington.
    I would just like to make a quick statement about what 
creates jobs. And a critical component for sustained economic 
recovery is job growth. With 95 percent of the potential 
consumers out of the United States, manufacturers everywhere 
have to compete globally. The way jobs are created is we go out 
and we have to compete for that global business. If we are 
competitive, we book the business. If we book the business, we 
have to make things. If we make things, we hire people. Very 
simple. Manufacturers have been proud to be leading the 
Nation's economic recovery with increased productivity, renewed 
investment, employment, export, and innovation. As we have 
heard many times today, we are the top manufacturing economy in 
the world, accounting for 21 percent of global manufacturing.
    Nonetheless, we remain extremely concerned about the 
challenges facing us in the United States. It is 20 percent 
more expensive to manufacture product here. If you look at that 
20 percent and add China's currency manipulation, we come out 
of the box at a 60 percent--in some cases--disadvantage, not to 
mention the trade barriers they are putting up. As president of 
a small business, I deal directly with these costs on a daily 
basis. I have an email on my laptop about a new opportunity in 
China. Their trade barriers are quite likely going to prevent 
me from getting that opportunity. It is for a small company 
called Apple. That is two to five jobs right there I am not 
going to be able to get potentially. So the situation on a 
global basis and the uncertainty, really, really hurts our 
ability to create jobs.
    We created roughly 150,000 jobs in manufacturing in the 
last 4 months. If you look at the multiplier, which has been 
estimated to be anywhere from two to four, you could be talking 
about 600,000 jobs. In order for us to continue to drive and 
create these jobs in this country, we need Congress to help us 
get more competitive. It is all about global competition. There 
are four goals that NAM has put together for economic growth. I 
would defer you to read those goals. I am trying to move as 
quickly as I can to get through everything here. But the United 
States needs access to global markets to enable us to get and 
reach 95 percent of these consumers who live outside our 
borders. To do that, we need effective tax policy, energy 
policy. We need to stop these insane regulations.
    And let me just make a quick point about the environment. I 
have children. I have grandchildren. I want them to breathe 
clean air. Overregulating is going to hurt the global 
environment. How is that going to happen? We are driving 
business out of this country into other countries that are not 
as careful with the environment as we are. So in theory, 
overregulation is going to backfire and hurt the global 
economy.
    Lowering the tax rate is important. The Ex-Im Bank is 
another important parameter that we need. We need FTAs. I want 
to make a quick statement about FTAs. The FTAs we have in place 
actually have trade surpluses. As a matter of fact, over the 
past 4 years where we have FTAs in place we have a cumulative 
trade surplus of $120 billion. That equates directly to jobs. 
We need jobs for that sustained economy. I have talked about 
that early on.
    Workforce development, I have three technology jobs I can't 
fill right now. If you multiply that by all other kinds of 
small companies, we could be talking 600,000 to a million and a 
half jobs unfilled because of workforce.
    I know I am out of time. I just want to end with this is a 
time of great optimism for manufacturing in the United States. 
We ask for your help. Help us get more competitive. Please, I 
am begging you. We can do it. We can get those jobs back here. 
We can make this economy rock but we need your help. We can't 
do it without your help.
    Thank you.
    [The prepared statement of Mr. Lubrano follows:]
    [GRAPHIC] [TIFF OMITTED] 81915.028
    
    [GRAPHIC] [TIFF OMITTED] 81915.029
    
    [GRAPHIC] [TIFF OMITTED] 81915.030
    
    [GRAPHIC] [TIFF OMITTED] 81915.031
    
    [GRAPHIC] [TIFF OMITTED] 81915.032
    
    [GRAPHIC] [TIFF OMITTED] 81915.033
    
    [GRAPHIC] [TIFF OMITTED] 81915.034
    
    [GRAPHIC] [TIFF OMITTED] 81915.035
    
    [GRAPHIC] [TIFF OMITTED] 81915.036
    
    [GRAPHIC] [TIFF OMITTED] 81915.037
    
    [GRAPHIC] [TIFF OMITTED] 81915.038
    
    [GRAPHIC] [TIFF OMITTED] 81915.039
    
    [GRAPHIC] [TIFF OMITTED] 81915.040
    
    Mrs. Bono Mack. Thank you, Mr. Lubrano.
    Mr. Giffi, you are recognized for 5 minutes.

                  STATEMENT OF CRAIG A. GIFFI

    Mr. Giffi. Good afternoon, Chairwoman Bono Mack and members 
of the subcommittee. Thank you for inviting me to testify this 
afternoon. The work of this committee and your leadership to 
help bolster U.S. manufacturing competitiveness is essential to 
this country and well appreciated.
    For the past several years, Deloitte has had the privilege 
of working in collaboration with the World Economic Forum, the 
U.S. Council on Competitiveness, and the Manufacturing 
Institute to better understand the capabilities necessary to 
drive superior manufacturing competitiveness. Deloitte and the 
Manufacturing Institute have conducted a national survey of the 
American public annually for the past 3 years.
    The results indicate that Americans remain steadfast in 
their commitment to creating a strong, healthy, globally 
competitive manufacturing sector in the United States. The most 
recent survey of Americans reveals that 85 percent believe that 
the manufacturing sector is very important to our standard of 
living. Asked how they would prefer to create 1,000 new jobs in 
their communities with any new business facility, Americans 
indicated that they wanted those jobs to be in the 
manufacturing sector more so than any other industry choice.
    As part of our work with the World Economic Forum on their 
Future of Manufacturing Project, we uncovered compelling 
research from the Harvard Kennedy School and the MIT Media Lab, 
which indicates that the advancement of manufacturing 
capabilities is directly linked to a nation's economic 
prosperity, and importantly, to the prosperity of its middle 
class. This research also indicates that the capabilities of a 
nation's manufacturing sector is the best predictor of economic 
growth and prosperity for a nation over the long-term. It shows 
that the more advanced the products are that a nation can make 
and trade and the more advanced the manufacturing capabilities 
it possesses, the greater the prosperity.
    Finally, the research suggests that a great competition is 
underway between most nations for the benefits that their 
citizens can derive from a vibrant manufacturing sector. And 
this competition is showing an increasing emphasis on advanced 
manufacturing capabilities and products.
    In a parallel effort, in collaboration with the U.S. 
Council on Competitiveness, Deloitte conducts a survey of CEOs 
at manufacturing organizations around the world to gain their 
perspective on the drivers of competitiveness, as well as their 
view of the relative ranking of nations in terms of 
competitiveness.
    In addition, we conducted a series of one-on-one interviews 
on behalf of the Council with CEOs, labor union leaders, 
university presidents, and the directors of some of America's 
national laboratories over the past 18 months. Many of the 
leaders participating in those interviews describe the critical 
relationship between manufacturing and innovation in an 
ecosystem that extends to include community colleges, 
universities, national laboratories, and the private and public 
sectors, and they refuted any notion that America can maintain 
its competitive advantage in research and scientific discovery 
over the long run without also maintaining strong capabilities 
in manufacturing. They must go hand-in-hand.
    Not surprisingly, all of these participants identified 
talent-driven innovation as the key driver of a country's 
competitiveness while also noting the growing skills gap in 
America as one of the most concerning challenges affecting the 
U.S. According to a recent survey of U.S. manufacturers 
conducted by Deloitte and the Manufacturing Institute, 67 
percent of executives reported moderate to severe shortages of 
qualified workers for open positions translating into more than 
600,000 available jobs that can't be filled today simply 
because employers can't find workers with the skills they need.
    America's ``secret sauce'' for success must lie in a 
workforce where, at all levels, it is equipped with the 
science, technology, and math backgrounds necessary to compete 
with the very best and the creativity and leadership to be 
solution pacesetters for the world.
    A common theme across all of this research, the Council's 
Ignite series of recommendations to policymakers from U.S. 
business leaders, university presidents, national laboratory 
leaders, and labor union leaders, the input from the American 
public in our Unwavering Commitment Report, or the perspectives 
on the future of manufacturing from our work with the World 
Economic Forum is that the U.S. needs a comprehensive 
competitiveness strategy for the 21st century. And we will need 
an effective public-private collaboration resulting in the 
United States being consistently recognized as the leader in 
workforce talent, in innovation, energy availability and cost, 
and in business climate. Actions that facilitate that 
collaboration across all the stakeholders will enable the U.S. 
to drive high-value job creation and economic prosperity for 
generations to come.
    Thank you for this opportunity. I look forward to 
addressing your questions.
    [The prepared statement of Mr. Giffi follows:]
    [GRAPHIC] [TIFF OMITTED] 81915.041
    
    [GRAPHIC] [TIFF OMITTED] 81915.042
    
    [GRAPHIC] [TIFF OMITTED] 81915.043
    
    [GRAPHIC] [TIFF OMITTED] 81915.044
    
    [GRAPHIC] [TIFF OMITTED] 81915.045
    
    Mrs. Bono Mack. Thank you, Mr. Giffi.
    And Mr. Tindall, 5 minutes is your time.

                    STATEMENT OF KEN TINDALL

    Mr. Tindall. Good afternoon, Madam Chairman, members of the 
committee. Thank you for the invitation to share my experience 
at your hearing today.
    My answer to your question, ``Can American Manufacturing 
Thrive Again?'' is a strong yes. Let me explain. My 
organization, the North Carolina Biotechnology Center was 
mentioned in Congressman Butterfield's opening remarks. We are 
a state-funded nonprofit that works to create an environment 
conducive to innovation, company creation, recruitment, and 
growth resulting in biotech jobs.
    Critical to the biotechnology industry is biomanufacturing. 
These factories make some of our most advanced therapies and 
the handling is specialized. Process technicians may have 
associate's or bachelor's degrees. Engineers develop new 
processes and maintain the plants in virtually all of these 
facilities, employ individuals with varying education levels 
from certificate to Ph.D. These are great jobs. Salaries begin 
around $30,000 for a high school graduate with some additional 
training and go on to top six figures. The average salary for 
all biotech jobs in North Carolina is more than $75,000, 
approximately twice that of our private sector.
    So how did North Carolina create these jobs? As 
biotechnology was being developed some 40 years ago, North 
Carolina's economy revolved around tobacco, textiles, and 
furniture, industries in decline. In 1984, the North Carolina 
Biotechnology Center was created to support biotechnology 
research, business, and education across the State for long-
term economic development.
    North Carolina has taken a consistent and systematic 
approach to biotech job creation. We fund researchers to 
develop ideas with commercial application, we help spin ideas 
out of universities, and we work with partners, notably the 
North Carolina community college system, public and private 
universities, and industry. Today, some 58,000 people work at 
about 500 North Carolina biotech companies. Of these, 18 to 
20,000 work in manufacturing. In addition, the State's 
biomanufacturing companies showed modest growth since 2002 and 
are projecting 6.2 percent annual growth between 2011 and 2014.
    To meet the growing workforce demands, the State 
established a sector-specific training consortium in 2006. This 
partnership, called NCBioimpact combines the resources of North 
Carolina's university and community college systems with 
industry expertise to form a unique academic industry and 
government collaborative. The practical impact is that multiple 
companies have located their biomanufacturing facilities in the 
State, at least in part because of the comprehensive training 
capabilities of the NCBioimpact partnership. Across the board, 
site managers from companies like Novartis, Merck, Biogenetic, 
and others are able to fill almost every entry-level vacancy 
from within North Carolina.
    Finally, how does North Carolina's challenge from the early 
1980s reflect the challenge the United States faces today? 
First, we need a strong pipeline of products in order to 
increase manufacturing jobs. Second, training programs must 
produce workers who are job-ready day one. Third, we must 
recognize that other countries are beginning to affect our 
competitiveness in this sector.
    Increasing manufacturing jobs requires a culture of 
innovation. Quite simply, more ideas in the pipeline provide 
more chances for a product to be developed to a point of 
manufacture. Certainly, this concept holds true for biotech 
products but also can be applied to many of the new knowledge-
based industries that will require advanced manufacturing to 
develop and produce new products for their industries.
    Second, these biomanufacturing jobs require a different 
skill set than the assembly line jobs created at the turn of 
the previous century. In North Carolina, our training programs 
work to complement one another and stay in sync with industry 
needs, but success in these jobs also requires strong STEM 
education as early as possible.
    Third, the competition and pressures for this industry are 
global. In North Carolina, one biotech job yields 4.6 total 
jobs according to the Patel Institute. Everyone wants these 
high-impact jobs, and it is not just other U.S. States in 
competition for these jobs. Increasingly, all of our States are 
competing against a growing international contingent of 
biotechnology clusters.
    In summary, Madam Chairman, I believe manufacturing can 
thrive and continue to create jobs in the U.S. The 
infrastructure that supports these high-tech manufacturing 
centers lies in our education system and our capacity to 
innovate and develop new products, not just biotech products 
but products from new and emerging high-tech industries as 
well. Strengthening math and science education, linking 
workforce training programs with industry, and consistently 
supporting innovation will continue to improve the environment 
necessary for the creation and manufacture of specialized 
biotechnology and other technology-based products here in the 
U.S.
    Thank you, Madam Chairman and committee members, for the 
opportunity to speak with you today. I am happy to answer 
questions.
    [The prepared statement of Mr. Tindall follows:]
    [GRAPHIC] [TIFF OMITTED] 81915.046
    
    [GRAPHIC] [TIFF OMITTED] 81915.047
    
    [GRAPHIC] [TIFF OMITTED] 81915.048
    
    [GRAPHIC] [TIFF OMITTED] 81915.049
    
    [GRAPHIC] [TIFF OMITTED] 81915.050
    
    [GRAPHIC] [TIFF OMITTED] 81915.051
    
    Mrs. Bono Mack. Thank you, Mr. Tindall. I now recognize 
myself for 5 minutes of questions. And I would like to start 
with Mr. Giffi, but I am going to open this question up to 
anybody on the panel.
    I believe that the people who are most hardest hit by the 
economic downturn right now are women in the workforce. There 
is no question that they are being hit the hardest. But I have 
also met a bunch of women who are now in manufacturing and they 
are very enthusiastic; they are optimistic. And I understand 
that you have done a study on women in manufacturing, Mr. 
Giffi, and I was wondering if you could share some of your 
information or your thoughts specifically about women in 
manufacturing.
    Mr. Giffi. Well, women in manufacturing represent an 
incredible talent source that, unfortunately, American 
manufacturers have inadequately tapped into thus far. American 
manufacturers are pursuing the best talent in the world and 
they are pressed to fill their job openings, they are pressed 
to fill their management ranks with outstanding talent.
    Unfortunately, today's education system, counseling 
approaches often result in women not pursuing careers in both 
science, technology, math, engineering degrees that are 
necessary, technical degrees that are necessary and often opt 
out of a potential career in manufacturing much earlier in 
their life than would be necessary. This results in 
manufacturers unfortunately not getting access to that 
incredible talent and workforce.
    And I think more can be done, more will be done to both 
encourage women in our primary and secondary schools and our 
universities to pursue the careers that can lead to a very 
productive career in manufacturing and contributions to this 
country. It would also help U.S. manufacturers solve one of 
their largest issues, which is getting enough talent into their 
organizations to drive their competitive capabilities.
    Mrs. Bono Mack. Thank you.
    Does anybody else care to comment specifically on women in 
manufacturing? Mr. Lubrano?
    Mr. Lubrano. Yes, I would agree with that. I think the 
problem is not that there aren't women in manufacturing, 
especially high-technology manufacturing. I think the problem 
is we can't find anybody with the backgrounds and technology 
expertise that we need. I think there would be absolutely no 
hesitation on hiring women if we could find qualified women to 
come into the company.
    Mrs. Bono Mack. Thank you. It seems to me the manufacturers 
I have met, the women are entrepreneurial and they are 
recognizing their opportunities there and they are bringing 
their own great ideas into the sector. So if nobody else cares 
to comment on that, I will move to Dr. Atkinson.
    You state that the country can restore its manufacturing 
competitiveness if we adopted the right set of policies in the 
tax, trade, talent, and technology arenas. Why do you believe 
the changes you suggest to these policies will restore our 
competitiveness? Have they been proven elsewhere?
    Mr. Atkinson. Well, I think they have. If you look at the 
change in real manufacturing output as a share of GDP, the 
worst four countries in the world are United States, Spain, 
Italy, and Great Britain. Spain and Italy we all know about 
having real serious problems now and Great Britain has had I 
think very serious problems. There are lots of countries that 
are high-wage countries that have not lost manufacturing. 
Sweden, for example, Germany, a number of other countries have 
actually been able to perform quite well. And many of those 
countries have taken all four of those steps. The overall tax 
rate in the non-U.S. OECD now is 10 percentage points lower 
than the United States.
    And these countries have put in place very high R&D tax 
credits. You look at a country like France, for example, where 
their research and development tax credit now is six times more 
generous than the U.S. credit. So they have put in place these 
kinds of incentives.
    A program that we are big fans of--or country I should say 
is Germany. They have really been able to get high value added, 
high-tech manufacturing, compete against the Chinese and there 
are a number of different reasons. But two of them, they have a 
great apprenticeship program. They take workers and they train 
them in partnership with colleges, community colleges, 
institutes, and companies. And the second is they have a 
wonderful system of what are called Fraunhofer Institutes. 
These are 59 centers that are cofounded 2/3 by industry and 1/3 
by the government located at or near universities that work 
with, particularly, middle-sized companies like the kind of 
company Mr. Lubrano is with. And those have had success as 
well. So I think when you look at all of those factors 
together, high-wage countries can be successful.
    Mrs. Bono Mack. Thank you. Mr. Lubrano, you testify in 
support of trade agreements because we carried trade surpluses 
with the countries where we have trade agreements in place. Why 
do we have a trade surplus in manufactured goods with those 
countries?
    Mr. Lubrano. Why do we?
    Mrs. Bono Mack. Yes.
    Mr. Lubrano. We would have those trade surpluses in areas 
where were primarily technology-driven. Basically, what has 
kept our company surviving and competitive in places is the 
intellectual property we have and the technology we have. We 
are doing things today with materials, for example, the hard 
drive industry that 2 or 3 years ago were considered 
impossible. We have gotten completely out of the box, broken 
the box, and are doing things with metals, plating technology, 
process technologies that 3 years ago people would say you 
can't do that, including a lot of products now for storage, 
lithium ion, hybrid batteries for automobiles, developed a new 
material system that is patented. So intellectual property, as 
you have heard before, is a huge driver that gets us to those 
surpluses.
    Mrs. Bono Mack. Thank you. I agree with you on that point. 
And now my time is expired so I recognize Mr. Sarbanes for 5 
minutes.
    Mr. Sarbanes. I thank you, Madam Chair.
    I was looking at these reports. We got a bunch of these 
reports here on the U.S. Manufacturing Competitiveness 
Initiative. So there was one from CEOs, there was another one 
from labor, there was a third, and I was looking at some of the 
recommendations that were included. The one from the CEOs 
optimistically says that they conveyed an opinion overall that 
U.S. had the resources, capabilities, and will to be the most 
competitive manufacturing nation in the world in the 21st 
century, given a new approach to setting public policy.
    And then what I found interesting is the first 
recommendation here or the first principle from the CEOs was 
policymakers should strive considerably less to create a 
single, specific, concrete industrial policy for the future of 
U.S. manufacturing and instead seek to develop achievable 
goals, et cetera, et cetera. And then I was looking at the one 
from labor and their first recommendation on developing U.S. 
manufacturing strategy was to form a council on manufacturing 
policy to lead the development of a U.S. manufacturing strategy 
to construct a dialogue between management, labor, educators, 
and policymakers, and so forth.
    So I wondered if anyone who wants to could just comment on 
whether there is tension there in terms of whether we should 
really set a focused strategy and policy on U.S. manufacturing 
and have real structure to that over time, or whether we 
should, as this other report said, strive considerably less to 
create a single, specific, concrete industrial policy for the 
future of U.S. manufacturing? We could go down the line if you 
want. Mr. Atkinson?
    Mr. Atkinson. I think it is very dangerous to have a policy 
here without a real coherent strategy. And the word industrial 
policy has largely been given a bad name. Whatever you want to 
call it, if we don't have a coherent strategy--and we can't 
just rely on sort of expecting companies to do the right thing 
just leaving them alone.
    One important reason, by the way, there is a skill shortage 
right now that everybody talks about and companies complain 
about a skill shortage it is because companies themselves are 
investing half in training their workers than they did a decade 
ago, investing half. So when you are investing half in training 
your workers, you are going to end up with a skill shortage. So 
I think the real challenge here is we need to form real public-
private partnerships and form a national industrial strategy. 
And that will clearly include things, if you will, from both 
sides of the aisle. It has to include regulatory issues, it has 
to include tax issues, but it has to include real strategy 
about technology areas that we think we could be successful in, 
about how we are going to reorganize our workforce system and 
other things like that.
    Mr. Lubrano. Yes, I don't think what you mentioned, any of 
those things are mutually exclusive. I think the game has 
changed and what is needed is a partnership if you will between 
government, labor, and manufacturing and the management of the 
manufacturing companies. 2009 was probably the toughest year of 
my career and I have been doing this for about 40 years now. 
You are supposed to say I don't look it, but in any case, the 
cooperation with our labor force, our ability to move people 
around, the understanding from all sides about how important it 
was that we get through this thing together and the government 
help.
    I will give you an example. Rhode Island has a work share 
program, so we took all the resources we had and all the 
cooperation we could get, government, management, employees to 
get through that period. And we did. A lot of companies didn't. 
But I think that is the kind of thing we are looking for going 
forward. So I don't see any of those things you mentioned in 
that report as mutually exclusive.
    Mr. Giffi. Congressman, I was actually fortunate enough to 
do all of those interviews and benefitted from being able to 
have those conversations with those CEOs, those labor leaders, 
university presidents, and lab leaders. I think they very much 
believe that the United States needs to come up with a 
comprehensive strategy. Collectively, I think they believe that 
industrial policy--because it has a fairly bad reputation and 
the notion of picking winners and losers on a regular basis 
through government policy actions--is not something that they 
believe makes sense. But creating a broad strategy that has 
tenets under it that allow American businesses to be most 
competitive on the global stage and creates a business climate 
that creates jobs, they were very much in agreement on.
    Mr. Sarbanes. Maybe we can come back on a second.
    Mrs. Bono Mack. All right. The Chair now recognizes Ms. 
Blackburn for her questions.
    Mrs. Blackburn. Thank you, Madam Chairman. And thank you to 
each of you. As you can hear the bells, we have got votes so we 
are going to do this quickly.
    I am just going to give each of you a question that I would 
like to hear from you on. You can submit it in writing because 
I know Mr. Cassidy, we want to get his questions in before we 
leave.
    But we have talked about competitiveness, we have talked 
about information technology, and Mr. Lubrano, you just touched 
on that a little bit also. And what I would like to know from 
each of you is, number one, when you look at that bottom line--
and as you have said, you have had some tough years and we are 
learning to do things differently in our U.S. manufacturing 
base. When you look at your efficiencies, what percentage of 
your profit are you attributing to the use of new information 
technologies?
    And then secondly, as we look at spectrum--and of course we 
are trying to get more spectrum auctioned so that you can use 
more of these technologies--how important is it to you to have 
more spectrum available for use of these new technologies in 
the marketplace?
    And I will yield back my time so that Mr. Cassidy can 
answer and you all can respond to me in writing. But thank you 
again for your participation with us.
    Mrs. Bono Mack. Thank you. To clarify, the gentlelady is 
only asking for responses in writing.
    OK. So I will recognize Dr. Cassidy now for his 5 minutes 
and again recognize we are crunched for time.
    Mr. Cassidy. You all give me the hook when we got to get 
there, OK? I am used to women telling me what to do.
    So to whoever feels most qualified, I am struck again as 
you heard in my previous questioning how natural gas and 
domestic oil and gas has, from everything I have read, 
contributed greatly to lowering input cost and otherwise 
improving the robustness of our manufacturing, if you will, 
directly contributing to tens of thousands of manufacturing 
jobs. Now, the President almost demagogues the issues--I hate 
to say that--because he continues to suggest that we can 
replace that sort of energy with what he calls renewables and 
not have a downside.
    Now, let me just give some statistics that we pulled up 
from the Energy Institute, that the Federal electric subsidies 
per unit of production in 2000 $10 per megawatt hour, for 
natural gas is 64 cents, for nuclear is $3.14, and for solar is 
$776 per megawatt hour. Now, this to me is laughable to think 
that if your input cost is based upon something which has to be 
subsidized at $776 per megawatt hour that you can have the same 
sort of robust expansion of manufacturing in energy-intensive 
enterprises that we are currently having now.
    Gentlemen, would you all challenge that? Would you agree 
with that? What comments would you make?
    Mr. Lubrano. I would agree with you. Energy, as you know, 
manufacturers use about 1/3 of the energy produced in this 
country. In our manufacturing in particular we use natural gas 
and electricity to a very large extent because we have to 
process metal and then yield the metal and it is critical to 
our process. We need a comprehensive energy strategy which 
includes oil, gas, coal, and you can throw in some of the 
others, solar, wind power. But most of the----
    Mr. Cassidy. But unless that solar was subsidized, I 
presume you would not be able to afford to use it?
    Mr. Lubrano. We would not be able to afford it.
    Mr. Cassidy. So unless the taxpayer is willing to throw his 
or her money on the table, then frankly, the input cost would 
be way too high?
    Mr. Lubrano. The input cost would be way too high. If we 
had to pay that, we would be less competitive and there would 
be less jobs.
    Mr. Cassidy. So we are trying to pick ourselves up by the 
bootstraps if you will, taxing ourselves to subsidize it so 
that you can use it at an affordable cost?
    Mr. Lubrano. Well, I think that is a bad idea. I think what 
we need to do is develop what we have. I would like to see the 
XL pipeline. That is critical. I would like to see more 
development of natural gas through----
    Mr. Cassidy. Now, let me cut you off just because again I 
am about to get the hook. I heard an energy analyst tell me 
recently that the direct--in fact, maybe the Pricewaterhouse or 
another thing--that the low cost of natural gas may increase 
our GDP by 1.1 percent in 2013, which is really quite 
remarkable.
    Mr. Lubrano. That is an increase of GDP.
    Mr. Cassidy. Increase our GDP.
    Mr. Lubrano. Yes.
    Mr. Cassidy. Do you all agree with that?
    Mr. Lubrano. I would agree with that, absolutely.
    Mr. Cassidy. Well, I think we need to go. Thank you all 
very much. I have more to ask but we are obviously hurried. 
Thank you all.
    Mr. Lubrano. Thank you.
    Mrs. Bono Mack. I thank the gentleman. I apologize that our 
time is so short today. I think we have squeezed a lot of 
terrific information in between the series of votes. And I 
would clearly like to thank our distinguished panel. It has 
been a great discussion about the future of manufacturing in 
America.
    Clearly, more and more companies are beginning to rethink 
their strategies and business plans for the coming years, and I 
sincerely hope that our subcommittee, working closely together, 
can give them a reason to make ``Made in America'' matter 
again.
    I ask unanimous consent to include in the record of the 
hearing four reports published by Mr. Giffi's firm on various 
aspects of manufacturing to which he had referred in his 
testimony.
    [The information is available at http://www.compete.org/
images/uploads/File/PDF%20Files/Ignite_1-
0_FINAL_02.14_.11_.pdf, http://www.compete.org/images/uploads/
File/PDF%20Files/Ignite_2.0_.pdf, http://www.compete.org/
images/uploads/File/PDF%20Files/Ignite_3.0_FINAL_.pdf, and 
http://www.themanufacturinginstitute.org//media/
A07730B2A798437D98501E798C2E13AA.ashx]
    Mrs. Bono Mack. I remind Members that they have 10 business 
days to submit questions for the record, and I ask the 
witnesses to please respond promptly to any questions they 
receive. And with that, the hearing is now adjourned.
    Thank you, gentlemen.
    [Whereupon, at 1:05 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHIC] [TIFF OMITTED] 81915.052
    
    [GRAPHIC] [TIFF OMITTED] 81915.053
    
    [GRAPHIC] [TIFF OMITTED] 81915.054
    
    [GRAPHIC] [TIFF OMITTED] 81915.055
    
    [GRAPHIC] [TIFF OMITTED] 81915.056
    
    [GRAPHIC] [TIFF OMITTED] 81915.057
    
    [GRAPHIC] [TIFF OMITTED] 81915.058
    
    [GRAPHIC] [TIFF OMITTED] 81915.059
    
    [GRAPHIC] [TIFF OMITTED] 81915.060
    
    [GRAPHIC] [TIFF OMITTED] 81915.061
    
    [GRAPHIC] [TIFF OMITTED] 81915.062
    
    [GRAPHIC] [TIFF OMITTED] 81915.063
    
    [GRAPHIC] [TIFF OMITTED] 81915.064
    
    [GRAPHIC] [TIFF OMITTED] 81915.065
    
    [GRAPHIC] [TIFF OMITTED] 81915.066
    
    [GRAPHIC] [TIFF OMITTED] 81915.067
    
    [GRAPHIC] [TIFF OMITTED] 81915.068
    
    [GRAPHIC] [TIFF OMITTED] 81915.069
    
    [GRAPHIC] [TIFF OMITTED] 81915.070
    
    [GRAPHIC] [TIFF OMITTED] 81915.071
    
    [GRAPHIC] [TIFF OMITTED] 81915.072
    
    [GRAPHIC] [TIFF OMITTED] 81915.073
    
    [GRAPHIC] [TIFF OMITTED] 81915.074
    
    [GRAPHIC] [TIFF OMITTED] 81915.076
    
    [GRAPHIC] [TIFF OMITTED] 81915.077
    
    [GRAPHIC] [TIFF OMITTED] 81915.078
    
    [GRAPHIC] [TIFF OMITTED] 81915.079
    
    [GRAPHIC] [TIFF OMITTED] 81915.080
    
    [GRAPHIC] [TIFF OMITTED] 81915.081
    
    [GRAPHIC] [TIFF OMITTED] 81915.082
    
    [GRAPHIC] [TIFF OMITTED] 81915.083
    
    [GRAPHIC] [TIFF OMITTED] 81915.084
    
    [GRAPHIC] [TIFF OMITTED] 81915.085
    
    [GRAPHIC] [TIFF OMITTED] 81915.086
    
    [GRAPHIC] [TIFF OMITTED] 81915.087
    
    [GRAPHIC] [TIFF OMITTED] 81915.088
    
    [GRAPHIC] [TIFF OMITTED] 81915.089
    
    [GRAPHIC] [TIFF OMITTED] 81915.090
    
    [GRAPHIC] [TIFF OMITTED] 81915.091
    
    [GRAPHIC] [TIFF OMITTED] 81915.093
    
    [GRAPHIC] [TIFF OMITTED] 81915.094
    
    [GRAPHIC] [TIFF OMITTED] 81915.095
    

                                 <all>

</pre></body></html>
